United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 45

May 2001        Semiannual Report
                to Congress
                FY 2001—First Half
On the cover: The cover photo depicts an interior view of the Lincoln Memorial in Washington, D.C. When President Abraham Lincoln
founded the U.S. Department of Agriculture (USDA) in 1862, he called it the “People’s Department.” USDA photo.

The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, sex, religion, age, disability, political beliefs, sexual orientation, or marital or family status. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice and TDD). USDA is an equal opportunity provider and
employer.
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




                                                                                    April 18, 2001

The Honorable Ann M. Veneman
Secretary of Agriculture
Washington, D.C. 20250

Dear Madam Secretary:

I am pleased to submit the Office of Inspector General’s Semiannual Report to Congress
summarizing our activities for the 6-month period that ended March 31, 2001.

During this period, our audits and investigations yielded $72 million in recoveries, collections,
restitutions, fines, claims established, and costs avoided. Further, management agreed to put
$43 million to better use. We also identified $6 million in questioned costs that cannot be
recovered. In addition, our investigations produced 177 indictments and 180 convictions.

The number of arrests during Operation Talon is now approaching 7,400. We are continuing to
emphasize our efforts to counter public corruption, workplace violence, and threats to food
safety. Moreover, we cite numerous examples that illustrate how our active involvement can
preclude future problems in the Department.

I extend my appreciation to you and the Congress for your support in furthering our mutual
efforts to improve the integrity and efficiency of the Department’s programs and operations.

Sincerely,




ROGER C. VIADERO
Inspector General

Enclosure
Contents


                                                                                                                                                                            Page
Executive Summary ...............................................................................................................................................             1
Summaries of Audit and Investigative Activities ................................................................................................                              3
Perspective .............................................................................................................................................................     4
Public Corruption ...................................................................................................................................................         5
Workplace Violence ...............................................................................................................................................            6
Food Safety
   Food Safety and Inspection Service ....................................................................................................................                    7
Marketing and Regulatory Programs
   Agricultural Marketing Service .............................................................................................................................               8
   Animal and Plant Health Inspection Service ........................................................................................................                        8
Farm and Foreign Agricultural Services
   Farm Service Agency ..........................................................................................................................................            10
   Risk Management Agency ...................................................................................................................................                11
Food, Nutrition, and Consumer Services
   Food and Nutrition Service ..................................................................................................................................             14
   Food Stamp Program ..........................................................................................................................................             14
   Child Nutrition Programs ......................................................................................................................................           19
   Special Supplemental Nutrition Program for Women, Infants, and Children .......................................................                                           20
Natural Resources and Environment
   Forest Service ......................................................................................................................................................     21
   Natural Resources Conservation Service ............................................................................................................                       22
Rural Development
   Rural Housing Service .........................................................................................................................................           24
   Rural Business-Cooperative Service ...................................................................................................................                    26
Financial, Administrative, and Information Technology
   Financial Management ........................................................................................................................................             28
   Financial-Related Audits ......................................................................................................................................           29
   Information Technology .......................................................................................................................................            30
   Government Performance and Results Act of 1993 ............................................................................................                               31
Statistical Data
   Audits Without Management Decision .................................................................................................................                      32
   Indictments and Convictions ................................................................................................................................              40
   Office of Inspector General Hotline ......................................................................................................................                41
   Freedom of Information Act and Privacy Act Requests .......................................................................................                               42
Appendix I: Inventory of Audit Reports Issued
 With Questioned Costs and Loans .....................................................................................................................                       43
Appendix II: Inventory of Audit Reports Issued
 With Recommendations That Funds Be Put to Better Use ..............................................................................                                         44
Appendix III: Summary of Audit Reports Released Between
 October 1, 2000, and March 31, 2001 .................................................................................................................                       45
Executive Summary


This is the 45th Semiannual Report of the Office of          A Federal judge has sentenced an Oklahoma
Inspector General (OIG), U.S. Department of Agriculture      landowner to serve 14 years in Federal prison for
(USDA), pursuant to the provisions of the Inspector          murdering his neighbor. A Federal jury had found this
General Act of 1978 (Public Law 95-452), as amended.         man guilty of second-degree murder for shooting and
This report covers the period October 1, 2000, through       killing his neighbor, who was helping a Natural
March 31, 2001.                                              Resources Conservation Service (NRCS) employee
                                                             check on land that was enrolled in the Wetlands
In accordance with the requirements of the Inspector         Reserve Program.
General Act, this report describes matters relating to the
Department’s programs and operations which occurred          A joint investigation by OIG special agents and Food
during the reporting period. These include significant       Safety and Inspection Service (FSIS) compliance
problems, abuses, and deficiencies; significant              officers resulted in the indictment of two individuals and
recommendations for corrective action; prior significant     one corporation for distributing adulterated food
recommendations unimplemented; prosecutorial                 products to California schools. The food service
referrals; information or assistance refused; a list of      company distributed poultry products with rodent hair
audit reports; a summary of significant reports; tables on   and feces and signs of rodent gnawing on the food
questioned costs and funds to be put to better use;          items to schools during 1996 and 1997. The warehouse
previous audit reports unresolved; significant revised       manager has pled guilty and is awaiting sentencing.
management decisions; any significant management
decision disagreements; and a review of legislation and      Three individuals and two firms had been indicted after
regulations.                                                 our joint investigation with the U.S. Customs Service
                                                             and the California Department of Food and Agriculture
Monetary Results                                             disclosed that they had smuggled into California 61,000
                                                             pounds of Mexican sweet limes, some of which were
During this reporting period, we issued 53 audit and         infested with fruit fly larvae. The owner of the firms has
evaluation reports and reached management decisions          pled guilty and was sentenced to a year and a day in
on 46. Based on this work, management officials agreed       Federal prison. A representative of the two corporations
to recover $34.5 million and to put an additional            entered guilty pleas on behalf of the two firms.
$43.3 million to better use.
                                                             OIG special agents assisted APHIS in enforcing an
We also issued 221 reports of investigation during           order from the Secretary in the seizure of over 350 East
this period. Our investigative efforts resulted in           Friesian sheep from three flocks in Vermont, and in
177 indictments, 180 convictions, and approximately          monitoring their transport to an APHIS laboratory in
$37.8 million in recoveries, fines, restitutions, claims     Iowa. Four sheep from those flocks earlier had tested
established, and cost avoidance.                             positive for a transmissible spongiform encephalopathy
                                                             (TSE) (a class of diseases including bovine spongiform
Investigative Efforts                                        encephalopathy (BSE), also known as “mad cow”
                                                             disease).
In Miami, Florida, an Animal and Plant Health Inspection
Service (APHIS) Plant Protection and Quarantine (PPQ)        A husband and wife in Minnesota were each sentenced
officer is awaiting sentencing after pleading guilty to      to 33 months of imprisonment, followed by 3 years’
conspiracy to possess narcotics with intent to distribute.   supervised release, and ordered to pay $633,000 in
Over 3 years, the PPQ officer accepted more than             restitution. They had been found guilty of 46 felony
$91,500 in cash and drugs in exchange for allowing           counts that included conspiracy, bankruptcy fraud, mail
approximately 230 kilograms of cocaine, hidden inside        fraud, wire fraud, and false statements to obtain over
vegetable containers he cleared at the Miami                 $900,000 in USDA program payments and loans.
International Airport, to be smuggled into the United        During the course of bankruptcy proceedings, they hid
States.                                                      assets, which reduced their USDA debt from
                                                             approximately $1.9 million to $300,000.




                                                                                                                      1
A crop insurance agent in Clarksville, Texas, was sent          September 1996 nationwide EBT system audit
to Federal prison for 33 months, fined $10,000, and             recommendations were generally adequate. FNS’ work
ordered to pay restitution of nearly $592,000. The crop         to ensure that all States implement EBT systems to
insurance agent admitted using a relative’s and others’         deliver FSP benefits by October 2002 is functioning well
names on crops in order to avoid the Nonstandard                overall, but FNS needs to strengthen controls over EBT
Classification System listing, which raised premiums            benefit data reported to FNS and access controls to
and limited benefits.                                           State EBT systems.

Operation Talon has resulted in 7,372 arrests of fugitive       FNS needs to ensure consistency in its appeals
felons during joint OIG, Federal, State, and local law          process, which largely centers on Food Stamp Program
enforcement operations throughout the country. We are           cases. We found that decisions were inconsistent;
working with the U.S. Marshals Service to apprehend             decisions are not subject to program management level
Federal fugitives. Serious crimes perpetrated by those          review; Administrative Review Officers served in only
arrested included homicide-related offenses, sex                three locations, and appeal cases were assigned
offenses, kidnapping/abduction, assault, robbery, and           without regard for the appellant’s location; and appeal
drug/narcotics violations.                                      cases were not always scheduled in a timely manner.
                                                                We concluded that the system was not functioning as
Audit Efforts                                                   consistently as possible. FNS generally agreed with our
                                                                recommendations.
APHIS needs to strengthen controls over preclearance
operations. The agency needs to complete a promised             In the Forest Service (FS) land exchange program, we
national port manual to provide updated guidance to             found questionable practices on Lake Tahoe
port veterinarians on procedures for inspecting and             acquisitions and urban lot management. FS concurred
quarantining animals at ports of entry. Also, reporting         with all the audit findings and recommendations, and
procedures for reviews of country preclearance                  has ceased further acquisitions of lots at Lake Tahoe
programs were not enforced and/or did not always                until this issue is resolved. In addition, we found that
provide sufficient information to evaluate the                  controls are needed on acquisitions of lands in
effectiveness of preclearance operations in countries           congressionally designated areas.
of origin. APHIS officials concurred with our
recommendations.                                                We found that RHS allows the effective interest rate of
                                                                RRH loans to fall below the required 1 percent. Over the
OIG actively evaluated the implementation of the                last 5 years, RHS has applied over $388 million in
Agricultural Risk Protection Act of 2000. Our efforts           subsidy toward borrower principal on single and
have been focused primarily on the joint Farm Service           multifamily housing loans even though the enabling
Agency (FSA)-Risk Management Agency (RMA)                       legislation allows the subsidy to be used to reduce
implementation plan involving compliance and program            interest charges only. Because the subsidy of RRH
integrity. One of our primary objectives in this effort is to   loans is granted for the life of a loan, we estimated that
assist both RMA and FSA in improving their quality              RHS would pay approximately $2.6 billion of principal if
control system and compliance procedures to assess              the 11,405 subsidized loans reach maturity.
program integrity. Through this effort, we anticipate the
regulations and procedures to be implemented will help          In the financial statement audits, FNS, RMA, and the
ensure that farmers are treated fairly, claims are paid         Rural Telephone Bank received unqualified opinions in
quickly and correctly, and program abuses are detected          FY 2000, but FS and the Commodity Credit Corporation
and resolved early on.                                          (CCC) were unable to complete their financial
                                                                statements on time, and Rural Development received a
We were able to work “up front” on computer systems             qualified opinion. We issued a disclaimer of opinion on
with the Food and Nutrition Service (FNS) and the               the Department’s consolidated financial statements for
States as they were implementing the Electronic                 the seventh consecutive year. The USDA Working
Benefits Transfer (EBT) systems. As a result, EBT is a          Capital Fund (WCF) financial statements for FY 1999
success for us and FNS as well as the States. This              received an adverse opinion. The accounting
period, we determined that actions taken by FNS on our          deficiencies besetting WCF are pervasive and
                                                                pronounced.

2
    Summary of Audit Activities
Reports Issued .................................................................................................................................................         53
  Audits Performed by OIG ....................................................................................                39
  Evaluations Performed by OIG ...........................................................................                      2
  Audits Performed Under the Single Audit Act .....................................................                             1
  Audits Performed by Others ................................................................................                 11

Management Decisions Made
 Number of Reports ..........................................................................................................................................            46
 Number of Recommendations ........................................................................................................................                     342

Total Dollar Impact (Millions) .......................................................................................................................... $84.3
  Questioned/Unsupported Costs .......................................................................................... $41.0a,b,c
  Recommended for Recovery .............................................................................. $34.5
  Not Recommended for Recovery ........................................................................ $ 6.4
  Funds To Be Put to Better Use ............................................................................................ $43.3

a These were the amounts the auditees agreed to at the time of management decision.
b The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
  as debts due the Department.
c Because of rounding, this number does not equal the addition of the two numbers composing it. See Appendix I for exact numbers.



    Summary of Investigative Activities
Reports Issued ...................................................................................................................................................      221
Cases Opened ...................................................................................................................................................        288
Cases Closed .....................................................................................................................................................      250
Cases Referred for Prosecution .........................................................................................................................                146

Impact of Investigations
  Indictments ....................................................................................................................................................      177
  Convictions ....................................................................................................................................................      180a
  Searches ........................................................................................................................................................      50
  Arrests ...........................................................................................................................................................   676b

Total Dollar Impact (Millions) .......................................................................................................................... $37.8
  Recoveries/Collections .......................................................................................................... $18.0c
  Restitutions ........................................................................................................................... $14.1d
  Fines ..................................................................................................................................... $ 1.2e
  Claims Established ................................................................................................................ $ 1.3f
  Cost Avoidance ..................................................................................................................... $ 3.2g

Administrative Sanctions
  Employees ......................................................................................................................................................       28
  Businesses/Persons ......................................................................................................................................             828

a Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore,
  the 180 convictions do not necessarily relate to the 177 indictments.
b
  Includes 594 Operation Talon arrests and 82 arrests not related to Operation Talon.
c
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
d
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
e
  Fines are court-ordered penalties.
f
  Claims established are agency demands for repayment of USDA benefits.
g Consists of loans or benefits not granted as the result of an OIG investigation.




                                                                                                                                                                               3
Perspective


In a recent address to the Agricultural Outlook Forum, Secretary Ann M. Veneman identified the major challenges
facing American agriculture. Trade policy with all our trading partners; research and development to find solutions for
issues related to food safety, the environment, biotechnology, and energy; food safety and bovine spongiform
encephalopathy (BSE) (and now foot-and-mouth disease (FMD)); a safety net for farmers that moves toward a more
market-based economy; and consolidation and mergers in the food sector are all major challenges that the Secretary
addressed.

OIG is in a unique position within the Department to assist the Secretary and other Department managers as well as
the Congress in dealing with these challenges. Through our audits, we are often able to develop practical information
about ongoing operations that is useful in making decisions impacting future operations. We also work with
Department managers in the developmental stages of new programs and make recommendations for establishment
of appropriate internal controls that will help safeguard program operations and expenditures. Our investigations deal
with criminal issues and individuals whose goals are directly opposed to the program goals. We strive in OIG to utilize
both the audit and investigative functions to help the Department meet its goals and to provide advice regarding the
challenges facing USDA.

For example, in this report, there are discussions of our work in the food safety area. Also, as this report goes to
press, we are working with USDA agencies as the Department deals with the emerging threat of FMD. In the event
that the threat does in fact emerge, we will participate with USDA officials to facilitate trace-back of the origins of the
viral contamination, assist with any necessary quarantines which might be implemented by the Secretary or State/
local authorities, and conduct appropriate criminal investigations in concert with other Federal law enforcement
entities as necessary. We also will work with the Department and the U.S. Customs Service on the design of an
interagency system to identify and segregate high-risk cargoes of an agricultural interest. We are now working with
Department officials to review existing controls for the entry of agricultural and related products at U.S. border points.
We also have efforts underway to review similar controls for the importation of meat products into the United States.
Further, we have an antismuggling initiative underway to assist the Department in its efforts to keep out harmful pests
and diseases. For all these tasks, we have met with Department officials to coordinate our efforts with their work and
to assist them through onsite field visits to provide feedback on the current operating systems and suggestions for
improvements in these areas.

Another major challenge for the Department is financial management and accountability. While the Department has
made much progress, a number of hurdles must be overcome before the Department has effective control over its
financial resources. Three of the agencies at USDA have obtained clean opinions on their financial statement audits—
the Food and Nutrition Service, the Federal Crop Insurance Corporation, and the Rural Telephone Bank. However,
the Department overall has not yet achieved this level of success. But we believe that a number of positive steps have
been taken that will lead to better financial integrity, including the development of a new accounting system which all
USDA agencies will be using beginning in October 2001. This new accounting system, accompanied by corrective
actions now underway in credit reform and property inventory management, should allow the Department to have
financial accountability once the corrective actions are fully implemented. Our goal in OIG is to be a full partner with
USDA managers in offering advice, conducting reviews and investigations, and being part of the team that makes
USDA truly the “People’s Department.”




4
Public Corruption


A continuing priority for OIG is the investigation of          More Wholesalers Indicted, Convicted, Fined
criminal acts committed by USDA employees. We have             in Produce Bribery Scheme
identified approximately 55,000 USDA employees
whose positions place them in direct contact with the          We previously reported that a 21/2-year investigation
public. The percentage of wrongdoers is small, but to          uncovered a scheme by which Agricultural Marketing
maintain the public trust, internal controls must be in        Service (AMS) graders accepted bribes from produce
place and operating. During the past 6 months, public          wholesalers at the Hunts Point Terminal Market in New
corruption investigations resulted in 10 convictions of        York City in return for downgrading produce. The
current or former USDA employees and 28 personnel              wholesalers used the lower grades to reduce the price
actions. Descriptions of some recent investigations            they paid growers for the produce. Recently, an
follow.                                                        additional wholesale company owner was indicted and
                                                               arrested on conspiracy charges, and one wholesaler
APHIS Officer at Miami Airport Arrested for                    employee was convicted on 14 counts of bribery and
Drug Smuggling                                                 conspiracy. Another wholesaler employee pled guilty to
                                                               Federal misdemeanor charges, three others pled guilty
In Miami, Florida, an Animal and Plant Health Inspection       to one count of conspiracy each, and two were
Service (APHIS) Plant Protection and Quarantine (PPQ)          sentenced. Fines and restitution in this case now total
officer is awaiting sentencing after pleading guilty to        more than $64,000. The investigation is continuing, with
conspiracy to possess narcotics with intent to distribute.     one possible trial and sentencing pending.
Over 3 years, the PPQ officer accepted more than
$91,500 in cash and drugs in exchange for allowing             Former FS Employee Sentenced for
approximately 230 kilograms of cocaine, hidden inside          Embezzlement
vegetable containers he cleared at the Miami
International Airport, to be smuggled into the United          As previously reported, a former Forest Service (FS)
States. Special agents from OIG and the Drug                   employee in Arizona was charged with committing fraud
Enforcement Administration (DEA) arrested the man at           in the theft of Government funds. The employee used
the airport. He pled guilty after being indicted by a          an FS-issued VISA credit card for more than 300
Federal grand jury. This case was worked jointly with          personal purchases totaling over $23,000, including
DEA, the Internal Revenue Service’s Criminal                   food, gas, clothing, and personal computer parts. He
Investigation Division (IRS-CID), the U.S. Customs             has now been placed on 3 years’ probation and ordered
Service, and the Federal Bureau of Investigation (FBI).        to pay full restitution.

Louisiana NRCS Employee Sentenced for
Accepting a Bribe

A former Natural Resources Conservation Service
(NRCS) district conservationist in Louisiana was
sentenced to serve 30 days in Federal prison and fined
$4,000 after he pled guilty to bribery for soliciting $3,000
from a landowner who sought to obtain a wetlands
permit needed to build a lake. After completing the
prison sentence, he will be placed on supervised
release for 1 year. The former district conservationist
resigned after being confronted by an OIG agent and
has repaid the $3,000 he admitted soliciting. He had
worked for the Federal Government for 19 years.




                                                                                                                      5
Workplace Violence


Landowner Sent to Federal Prison for                        APHIS Employee Threatened With Firearm
14 Years in NRCS Murder/Assault Case
                                                            Trial is pending for a landowner who threatened an
A Federal judge has sentenced an Oklahoma                   APHIS animal health technician with a firearm while the
landowner to serve 14 years in Federal prison for           employee was engaged in official duties monitoring
murdering his neighbor. As previously reported, a           gypsy moth infestation in south-central Missouri. The
Federal jury had found this man guilty of second-degree     APHIS employee had placed gypsy moth traps on trees
murder for shooting and killing his neighbor, who was       in the area, including one tree belonging to the
helping an NRCS employee check on land that was             landowner. When the APHIS employee went to the
enrolled in the Wetlands Reserve Program. The jury          man’s house to explain what was being done, the
also found the subject guilty of the assault of a Federal   landowner became angry, displayed a handgun, and
employee for holding the NRCS employee at gunpoint          threatened to shoot the technician. The man also
for a time before allowing him to flee the scene.           cursed and verbally threatened the APHIS employee.
                                                            Two days after the incident, the county sheriff and OIG
Maine Man Found Guilty of Making Death                      executed a State search warrant at the man’s residence
Threats                                                     and obtained the firearm. The man was arrested and
                                                            subsequently charged under Missouri State law with a
Sentencing is pending for a hops grower from the State      Class D felony of unlawful use of a weapon.
of Maine who was convicted on three counts of making
threatening communications against a professor at the       Four Men Sentenced to Federal Prison for
University of Vermont. On at least three occasions, the     Assaulting FS LEO
subject made telephone calls to individuals, including
some USDA personnel, threatening to commit bodily           Three men were sentenced to serve 57 months in
harm and kill the professor. The subject stated that the    Federal prison and another to serve 24 months for
professor had illegally plagiarized his research results    assaulting an FS Law Enforcement Officer (LEO) who
on hops production in the Northeast United States           was performing routine patrol duties in a New Mexico
without compensating him. The subject also alleged the      national forest. The four men attacked the LEO,
professor published inaccurate reports under the            fractured his jaw, and caused lacerations to his face and
sponsorship of USDA’s Cooperative State Research,           head serious enough to keep him in the hospital for
Education, and Extension Service (CSREES) that              about a week. The men fled but were later arrested.
distorted the subject’s research, and that the professor    OIG agents participated in arresting one of the four. The
was acting as a representative of USDA.                     four men were in the United States illegally, and were
                                                            ordered to be deported to Mexico when released from
                                                            prison.




6
Food Safety


 FOOD SAFETY AND INSPECTION SERVICE                                   Indictments, Conviction in Distribution of Rodent-
 (FSIS)                                                               Damaged Food to Schools

                                                                      A joint investigation by OIG special agents and FSIS
FSIS administers a comprehensive system of inspection                 compliance officers resulted in the indictment of two
laws to ensure that meat, poultry, and egg products                   individuals and one corporation for distributing
moving in interstate and foreign commerce for use as                  adulterated food products to California schools. The
human food are safe, wholesome, and accurately                        food service company managed, stored, and distributed
labeled. FSIS’ estimated program level for FY 2001 is                 both USDA-donated and commercial commodities to 47
$771 million. Food safety is a major management                       school districts. It distributed poultry products with
challenge for USDA, and we consider it a top priority.                rodent hair and feces and signs of rodent gnawing on
Prompted by recent scrutiny of food safety and quality                the food items to schools during 1996 and 1997. The
issues, OIG undertook a food safety initiative to review              warehouse manager has pled guilty and is awaiting
FSIS’ meat and poultry inspection activities, finding that            sentencing. The company and its owner are awaiting
more needed to be done in each of the four major areas                trial.
reviewed.




          There was evidence of rodents having gnawed on food items. OIG photo.




                                                                                                                           7
Marketing and Regulatory Programs


    AGRICULTURAL MARKETING SERVICE                            ANIMAL AND PLANT HEALTH INSPECTION
    (AMS)                                                     SERVICE (APHIS)


AMS enhances the marketing and distribution of               Through inspections, APHIS protects the Nation’s
agricultural products by collecting and disseminating        livestock and crops against diseases and pests and
information about commodity markets, administering           preserves the marketability of U.S. agricultural products
marketing orders, establishing grading standards, and        at home and abroad. APHIS’ obligations for FY 2001
providing inspection and grading services. AMS’ funding      are estimated at over $645 million.
level for FY 2001 is approximately $270 million.
                                                             APHIS Needs To Strengthen Controls Over
Seven Milk Drivers and Dairymen Indicted for Milk            Preclearance Operations
Adulteration
                                                             Following up on audit of preclearance inspection
A series of investigations dubbed “Operation Got Water”      operations and the inspecting and quarantining of
in Louisiana and Mississippi found that numerous milk        animals prior to entry into the United States, we found
truck drivers and dairymen were illegally adding salt and    that APHIS was in compliance with preclearance
water to raw milk in order to increase the weight of daily   procedures at the ports of entry visited and with
milk production. Higher weights resulted in higher           inspection and quarantine procedures at the land
payments to the dairymen. To date, 7 drivers and             borders visited. However, we identified several areas
dairymen have been indicted, and plea negotiations with      that needed to be strengthened.
at least 20 others continue. This matter was worked
jointly with the U.S. attorney’s office for the Eastern      • APHIS had agreed to develop a national port manual
District of Louisiana and the Food and Drug                    to provide updated guidance to port veterinarians on
Administration’s Office of Criminal Investigation (FDA-        procedures for inspecting and quarantining animals
OCI).                                                          at ports of entry. We found the port manual was not
                                                               completed, and responsible officials had no
Dairy Pays $1.3 Million To Settle Civil Suit in Milk           explanation why APHIS had prematurely reported
Mislabeling Case                                               that the manual had been developed and distributed
                                                               to field personnel. Consequently, there is reduced
We previously reported that the president, vice                assurance that diseased animals entering the United
president, and controller of a Pennsylvania dairy were         States will be detected.
sentenced to probation and community service, and
ordered to pay a fine of $5,250 for selling more than        • Reporting procedures for reviews of country
19 million pounds of reconstituted skim milk that was          preclearance programs were not enforced and/or did
mislabeled as “milk.” A civil settlement has now been          not always provide sufficient information to evaluate
signed by the dairy and the Department of Justice on           the effectiveness of preclearance operations in
behalf of USDA, the Department of Defense, and the             countries of origin. Of the 25 trip reports reviewed for
Department of Veterans Affairs. As a result of the             countries with active preclearance programs during
settlement, the dairy has paid more than $1.3 million,         FY 1998, Mexico and the Netherlands did not include
which is to be divided equally among the victim                sufficient information to evaluate their preclearance
agencies. The dairy and its officers were debarred from        operations, and those for Argentina, Guatemala,
participating in Federal programs. This investigation          Nicaragua, Spain, and Venezuela were not submitted
was conducted jointly with FDA-OCI and AMS.                    to the appropriate official. We concluded there is no
                                                               assurance that the countries with preclearance
                                                               programs are operating in accordance with
                                                               regulations and the annual workplan. Further, there is
                                                               reduced assurance that program controls are working
                                                               to preclude the entry of nonprecleared fruits and
                                                               vegetables into the United States.




8
We recommended that APHIS develop the national port           transported, and euthanized without incident. The
manual with instructions for the port veterinarians in        Vermont State Police and the Hardwick, Vermont,
inspecting and quarantining animals at ports of entry         Police Department provided assistance during this
and certifying them free of communicable diseases,            operation. Each assisted OIG in motor movement.
update existing agency reporting policies and
procedures to include specific areas that should be
identified in trip reports, and enforce established
procedures that would require Plant Protection and
Quarantine officials to follow up and obtain reports not
submitted within the established timeframe. APHIS
officials concurred.

Importer Sentenced to Year in Prison for Smuggling
Infested Fruit

As noted previously, three individuals and two firms
were indicted after our joint investigation with the U.S.
Customs Service and the California Department of Food
and Agriculture disclosed that they had smuggled into
California 61,000 pounds of Mexican sweet limes, some
of which were infested with fruit fly larvae. The owner of
the firms has since pled guilty and was sentenced to a
year and a day in Federal prison. A representative of         OIG special agents assisted in the seizure and transport of the sheep.
the two corporations, one based in California and the         APHIS photo.
other in Mexico City, entered guilty pleas on behalf of
the two firms. The former general manager of one of the       Iowa Veterinarian Sentenced for Submitting False
firms is awaiting trial. The third individual is a fugitive   Pseudorabies Forms
believed to be in Mexico.
                                                              An Iowa veterinarian was found guilty at trial on two
OIG Assists APHIS With Seizure of Sheep                       counts of submitting false official pseudorabies serology
                                                              forms under the National Pseudorabies Program
OIG special agents assisted APHIS in enforcing an             administered by APHIS. The forms submitted by the
order from the Secretary in the seizure of over 350 East      veterinarian falsely documented his collection of blood
Friesian sheep from three flocks in Vermont, and in           samples from the swineherds of three Iowa swine
monitoring their transport to the APHIS National              producers. He also submitted false billing statements for
Veterinary Services Laboratory in Ames, Iowa. Four            blood collection to the State of Iowa and USDA. The
sheep from those flocks earlier had tested positive for a     veterinarian was sentenced to 1 month of imprisonment
transmissible spongiform encephalopathy (TSE) (a              and 5 months’ home confinement, 2 years’ supervised
class of diseases including bovine spongiform                 release, $580 restitution, and a $10,000 fine. His appeal
encephalopathy (BSE), also known as “mad cow”                 is pending.
disease). Three different Vermont farmers purchased
these milk sheep from Belgium in the spring of 1996,
through a change in Federal regulations that permitted
limited importation of sheep from countries affected with
the disease. In response to the test results, the
Secretary issued a declaration of extraordinary
emergency because of atypical transmissible
spongiform encephalopathy of foreign origin, which
enabled USDA to seize the sheep. The seizure was
challenged in Federal court, but a judge upheld the
Secretary’s order. Although there was a crowd of
protesters at one of the farms, the sheep were seized,

                                                                                                                                   9
Farm and Foreign Agricultural Services


                                                            county committee approved unauthorized cotton yield
 FARM SERVICE AGENCY (FSA)
                                                            increases on 18 of the county’s 23 cotton farms. All of
                                                            these unauthorized actions increased program
FSA supports American agriculture and the American          payments for subsequent years.
public through agricultural commodity, farm loan,
conservation, environmental, and emergency                  During the audit, FSA initiated action to preclude
assistance, as well as domestic and international food      payment of $5.5 million of the questioned costs for
assistance programs. The FY 2001 budgeted program           1998 through 2002 and took action against some of the
level for FSA is estimated at over $32 billion, including   employees responsible for irregularities disclosed by the
more than $26 billion for operations funded by the          joint review. FSA is considering whether to pursue
Commodity Credit Corporation (CCC), a Government            collection of the prior years’ overpayments.
corporation. A major management challenge for USDA
is farm credit, and management of the $21 billion farm      Two Convicted, Sentenced in Million-Dollar Fraud
loan portfolio remains of major importance to the           and Bribery Scheme
Department.
                                                            A Mississippi farmer was sentenced to 2 years in
Joint Review Uncovers Deficient Administration at           Federal prison following conviction on five counts of
Arkansas County FSA Office                                  making false statements and two counts of bribery after
                                                            a 3-week Federal trial. An FSA loan official who
At the request of FSA national office officials, we         received a total of $5,000 in bribes on three occasions
performed this audit of an Arkansas county FSA office       from the farmer was convicted on two counts of
to expand on findings identified during an internal FSA     receiving a bribe and sentenced to 3 years’ probation.
review. Our joint review with FSA identified serious        Our investigation showed that the farmer had conspired
problems in program administration at the county office     to form partnerships with family members residing in
and generally confirmed FSA’s initial findings that FSA     three other States to circumvent the FSA operating loan
county office employees and/or producers violated or        limits and raise the maximum FSA deficiency payments.
took deliberate action to circumvent farm program           In 1997 and 1998, the family applied for and received
provisions. The extent of irregularities and abuse was      illegal FSA loans and subordinations in excess of
so pervasive that we concluded the county office was        $1 million for five separate entities by filing false
mismanaged and that State office oversight and              financial statements, production records, and legal
supervision were inadequate. As a result, FSA issued        documents.
approximately $3.5 million in improper or excessive
program payments. We also identified cost savings           Cotton Investigation Yields $5.5 Million in Fines and
totaling approximately $5 million in program payments       Restitution
applicable for the 1998 through 2002 crop-years (CY)
which FSA was able to correct prior to payment. In          An extensive investigation of the Upland Cotton
addition, we noted that an FSA county agricultural          Domestic User/Exporter Program, known commonly as
official and a relative received about $490,000 of the      “Step 2,” has concluded with the seizure of $1.5 million
questioned payments.                                        in assets; fines and restitutions totaling $5.5 million;
                                                            convictions of four corporations; a civil settlement with
We found that FSA county office employees and county        one corporation; and a 2-year prison sentence for the
committee members generally allowed producers to use        president of a cotton exporter firm. As previously
improper “planted and considered planted” credit, as        reported, OIG investigators determined that exporters
well as farm reconstitutions, to increase rice crop         were involved in a major fraud conspiracy where “shell
acreage bases (CAB) and disaster acreage for                corporations” and foreign affiliates were used to register
payment. We also identified instances in which county       false sales to CCC.
office employees took deliberate unauthorized action to
increase producers’ FSA program payments, including         Cotton Industrialist Pleads Guilty in Loan Fraud and
cases in which farm reconstitution contribution             Check-Kiting Scheme
percentages were changed without justification, and rice
yields and CABs were increased. Similarly, in 1996, the     Sentencing is pending for a prominent Louisiana
                                                            businessman who pled guilty in Federal court to

10
violations of bank fraud and making false statements.           estimated at $2.2 billion. One of the major management
The man was a cotton farmer, shipper, gin owner, and            challenges for the Department is Federal crop
director on the boards of a cotton warehouse and a              insurance, which has become the USDA farmer “safety
Louisiana bank. Our investigation showed that he                net,” as Congress has provided about $28 billion to
fraudulently received $216,000 in CCC cotton loans and          compensate producers for recent low commodity prices
payments by purchasing about 1,000 bales of 1998                and crop losses, and to expand and cut the cost of
cotton, repacking it, and identifying it as cotton he grew      Federal crop insurance over the next 5 years.
in 1999. He also defrauded two banks by writing checks
for which he had insufficient funds. The total fraud was        Errors on Specialty Crop Policies and Loss Claims
about $5 million. This investigation was worked jointly         Not Detected by Insurance Companies
with the FBI.
                                                                The work of sales agents and loss adjusters is critical in
Virginian Convicted of Defrauding U.S. Bankruptcy               ensuring that indemnity payments are correct and
Court and FSA                                                   proper. Prior to accepting the insured’s policy, the sales
                                                                agent should verify the insured’s actual production
A Virginia dairy farmer pled guilty in U.S. district court to   history or yield. In the event of an insurable loss, the
devising a scheme to defraud the U.S. Bankruptcy                loss adjustor should verify and accurately appraise any
Court and his creditors, including FSA, by concealing           production losses when processing the loss claims.
assets from the bankruptcy trustee assigned to his case         Furthermore, prior to the issuance of indemnity
and making false oaths and declarations in bankruptcy           payments, insurance companies should require reviews
proceedings. Sentencing is pending. During bankruptcy           of specific loss claims to ensure that the claims have
liquidation, the farmer failed to disclose an inheritance       been properly calculated. In many of our prior reports
he received and concealed the transfer of over                  involving the Federal crop insurance program, we have
$200,000 in assets. The farmer also converted to his            recommended that RMA strengthen its management
personal use more than $17,000 in proceeds from the             controls of these critical processes. In our current report
sale of cattle that had been pledged as security for FSA        on specialty crops issued this period, we identified
loans. During this investigation, OIG received                  similar weaknesses in the processing of crop insurance
substantial assistance from USDA’s Office of the                policies and loss claims.
General Counsel (OGC) and FSA.
                                                                We identified questionable indemnities totaling
Individual in Montana Convicted for False                       $2.2 million of the $16 million reviewed for CYs 1996,
Statements                                                      1997, and 1998. We found that sales agents, loss
                                                                adjusters, and insureds did not comply with Federal
A Montana farmer was found guilty at trial and ordered          crop insurance procedures when establishing actual
to pay over $181,000 in restitution and serve 5 years’          production yields, calculating appraised production, and
probation for concealing information and making false           establishing insurable acreage and value of production
statements to FSA. The farmer’s actions resulted in his         to count. For example, an agent used popcorn ear
receiving an unwarranted $2 million write-down of his           weights instead of the required shelled ear weights in
USDA debt. Civil action is pending.                             calculating the prior year’s production yields, which
                                                                overstated the insured’s guarantee and premiums. As a
                                                                result of this error (and other errors), the insured’s
 RISK MANAGEMENT AGENCY (RMA)
                                                                indemnity payments were overstated by $257,000. In
                                                                another example, the insured received $16 per ton for
RMA administers the Federal Crop Insurance                      harvested production, but the loss adjuster used only $1
Corporation (FCIC) and oversees all programs                    per ton, thereby undervaluing the production actually
authorized under the Federal Crop Insurance Act. FCIC           harvested. As a result, the insured’s indemnity payment
is a wholly owned Government corporation that offers            was overstated by $426,000.
subsidized multiple-peril and revenue crop insurance
through a private delivery system by means of                   RMA’s procedures required that insurance companies
insurance companies. RMA’s FY 2001 Government                   review any loss claim where the loss exceeds $100,000
cost, after producer-paid premiums of $968 million, is          per unit. Since some of the loss claims that we reviewed



                                                                                                                         11
should have been reviewed by the insurance companies       Our efforts have been focused primarily on their joint
prior to payment, we checked the adequacy of their         implementation plan involving compliance and program
reviews. In some cases, we found that the required         integrity. We participated in their meetings and
reviews by the insurance companies had not been            discussions to draft the implementation plan and
performed. For those cases where the reviews had           provided comments to their plan. We also attended
been performed, the insurance company reviews were         meetings where RMA and FSA officials briefed
ineffective in detecting the incorrect premiums and        departmental staff, congressional staff, and insurance
indemnity payments.                                        companies on the draft plan. In addition, we participated
                                                           in the various working groups and provided comments
We recommended that RMA officials review the cited         on the draft regulations as they were drafted.
cases and recover the questioned and unsupported
indemnities. We also recommended that RMA take             On January 12, 2001, the Secretary approved the joint
other appropriate management actions to ensure             implementation plan. This implementation plan provides
compliance with program regulations. Since the insured     timetables for drafting and issuance of program
can divide his/her farming operation into a number of      procedures, joint training sessions, joint field reviews,
units for insurance purposes, we recommended that          and other actions in five major areas—consultation with
RMA apply the $100,000 threshold for a loss claim          FSA State committees, utilizing FSA’s field structure,
review to the total indemnity payments for a crop (and     claim reviews, referrals and investigations, and data
not limit that threshold level to a unit).                 reconciliation. RMA has also been working with the
                                                           insurance industry on its implementation.
In its response to the questioned and unsupported
payments and premiums, RMA agreed to recover the           One of our primary objectives in this effort is to assist
amounts after it reviewed our working papers and made      both RMA and FSA in improving their quality control
a final determination. RMA also agreed that the            system and compliance procedures to assess program
threshold of $100,000 indemnity to trigger a review        integrity. Through this effort, we anticipate the
would be on a crop basis rather than on a unit basis.      regulations and procedures to be implemented will help
RMA stated that it is incorporating this change (plus      ensure that farmers are treated fairly, claims are paid
others) into the Manual 14 handbook.                       quickly and correctly, and program abuses are detected
                                                           and resolved early on.
OIG Actively Evaluates ARPA Implementation
                                                           Two Sentenced in Minnesota Bankruptcy Fraud
During this reporting period, we continued our close
association and coordination with RMA and FSA during       We reported last period that a Minnesota husband and
their implementation of the Agricultural Risk Protection   wife were found guilty of 46 felony counts that included
Act of 2000 (ARPA). In order to strengthen program         conspiracy, bankruptcy fraud, mail fraud, wire fraud, and
integrity, ARPA mandated that the two agencies             false statements to obtain over $900,000 in USDA
coordinate their resources and staffs in the following     program payments and loans. In addition, during the
areas:                                                     course of bankruptcy proceedings, they hid assets,
                                                           which reduced their USDA debt from approximately
• The two agencies should reconcile relevant               $1.9 million to $300,000.
  producer-derived information for producers obtaining
  crop insurance coverage under ARPA.                      Since our last report, the husband and wife were each
                                                           sentenced to 33 months of imprisonment, followed by
• FSA, through its field staff, should assist in RMA’s     3 years’ supervised release. They were also ordered to
  ongoing monitoring of the programs authorized under      pay a total of $633,000 in restitution.
  ARPA.
                                                           Following the criminal action on the husband and wife,
• RMA should consult with the FSA State committees         the National Appeals Division (NAD) upheld the
  with respect to policies, plans of insurance, farm       Minnesota State FSA committee’s determination that a
  practices, etc.                                          relative participated in a scheme or device from 1992
                                                           through 2000 to receive FSA program payments totaling



12
$472,750. They determined a failure to disclose to FSA
the involvement in the relatives’ corporations and a
failure to keep separate accounts. Though unqualified,
since 1996 the relative also received more than
$1.1 million in CCC loans, based on false
representations to FSA.

Crop Insurance Agent Sentenced to Federal Prison

A crop insurance agent in Clarksville, Texas, was sent
to Federal prison for 33 months, fined $10,000, and
ordered to pay restitution of nearly $592,000. Our
investigation involved coconspirators who were on the
Nonstandard Classification System (NCS) list and had
their crop insurance entity changed during CYs 1993
through 1997. The crop insurance agent admitted using
a relative’s and others’ names on crops in order to avoid
the NCS listing, which raised premiums and limited
benefits.




                                                            13
Food, Nutrition, and Consumer Services


                                                            Currently, 41 States and the District of Columbia use
 FOOD AND NUTRITION SERVICE (FNS)
                                                            EBT systems (38 implemented statewide) to deliver
                                                            food stamp benefits, with about 76 percent of FSP
FNS administers the Department’s food assistance            benefits being issued via EBT. This period, we
programs, which include the Food Stamp Program              determined that actions taken by FNS on our
(FSP); the Child Nutrition Programs (CNP); the Special      September 1996 nationwide EBT system audit
Supplemental Nutrition Program for Women, Infants,          recommendations were generally adequate. In FY 1999,
and Children (WIC); and the Food Donation Programs.         FNS implemented EBT reconciliation guidance for State
The bulk of FNS’ $34.2 billion funding for FY 2001 goes     agencies to address, in part, continuing problems
to FSP ($20.1 billion), CNP ($9.6 billion), and WIC         identified by our audit reports related to issuance data
($4 billion).                                               reported to FNS by States. FNS’ work to ensure that all
                                                            States implement EBT systems to deliver FSP benefits
                                                            by October 2002 is functioning well overall, but FNS
 FOOD STAMP PROGRAM (FSP)
                                                            needs to strengthen controls over EBT benefit data
                                                            reported to FNS and access controls to State EBT
Because of the size and vulnerability of the Food Stamp     systems.
Program (FSP), we devote significant resources to audit
this program, focusing primarily on Electronic Benefits     • Obligations at fiscal yearend were not accurately
Transfer (EBT) systems implementation, household and          reflected in FNS’ accounting records because of
retailer eligibility, and administrative costs.               flawed methodology for expunged benefits. As a
                                                              result, current-year obligations of food stamp benefits
Operation Talon Arrests Near 7,400                            were understated, and prior year obligations
                                                              remained in the accounting system even though no
Operation Talon was designed and implemented by               longer available to recipients. FNS agreed to modify
OIG to locate and apprehend fugitives, many of them           the existing manual fiscal year integrity calculation to
violent offenders, who are current or former food stamp       correct this flaw.
recipients. As of March 31, 2001, Operation Talon had
resulted in 7,372 arrests of fugitive felons during joint   • States did not always report the proper amount of
OIG, Federal, State, and local law enforcement                expunged food stamp benefits within the required
operations throughout the country. On the Federal level,      timeframes, and FNS had not adequately monitored
we are working with the U.S. Marshals Service to              reported expungement data for reasonableness. As a
apprehend Federal fugitives. Serious crimes                   result, FY 1999 obligations for food stamp benefits
perpetrated by those arrested included homicide-related       were overstated in FNS’ accounting system by
offenses (murder, attempted murder, manslaughter),            $2.5 million. FNS agreed to implement a system to
sex offenses (child molestation, rape, attempted rape),       review reported expungement data.
kidnapping/abduction, assault, robbery, and drug/
narcotics violations. See figure 1, on pages 16 and 17,     • We had previously reported that the Account
for a detailed breakout of results, listed by Uniform         Management Agent (AMA) system design permits
Crime Reporting (UCR) categories.                             the EBT processor to adjust issuance without
                                                              obtaining State approval. FNS required EBT
Monitoring of EBT Systems Continues                           processors to use batch processing to minimize the
                                                              number of necessary adjustments and requested that
We were able to work “up front” on computer systems           the Federal Reserve Bank modify the AMA system,
with FNS and the States as they were implementing             but design changes were not expected to be
EBT. As a result, EBT is a success for us and FNS as          implemented until the second quarter of FY 2001.
well as the States. It is now much easier to detect           FNS allows States to report corrections to EBT
retailers who harm the program by buying benefits at          issuance for 90 days, which is excessive, and EBT
half their cost or less, rather than selling food. With       processors can gain access to a larger amount of
EBT, this can be more readily pinpointed.                     Federal funds than authorized by the State. FNS
                                                              agreed to expedite an enhancement to AMA that
                                                              requires prior approval by the State of all processor-



14
  initiated adjustments. FNS agreed to modify the time     In most of the cases noted above, FNS issued no final
  period. States and EBT processors now have               guidance to establish consistency in policy or in
  30 days after the reporting month ends to make           interpreting regulations. Although it issued guidance in
  adjustments to food stamp issuance data.                 the case of understocked stores, that guidance was less
                                                           precise than the policy described in regulations which
• We have identified more than 180 individuals in          were under development and allowed AROs
  7 States whose access to a State EBT system should       considerable discretion when ruling on such cases.
  have been removed because their job duties had
  changed or they were no longer employed by the           The AROs’ decisions are not subject to program
  State. FNS agreed to direct States to tighten existing   management level review. The FNS national office is
  controls over EBT access by conducting at least          generally unaware of discrepancies prior to the AROs’
  semiannual reviews of system access and to               rulings because the AROs are not required to consult
  reinforce the importance of reviewing EBT system         anyone before rendering their decisions. Similarly,
  access at regional meetings.                             program officials do not have the opportunity to review
                                                           questionable ARO rulings after they have been made.
FNS Needs To Ensure Consistency in Its Appeals             However, appellants may pursue through the courts any
Process                                                    ruling they believe was rendered in error. FNS agreed
                                                           that the statute provides considerable latitude with
Individuals who are accused of violating the rules of an   regard to designing the appeals process and that the
FNS program and have an adverse action taken against       institution of such a program management review
them may appeal that action. Most appeals occur in         system was appropriate and feasible and would
FSP, where retailers who are licensed to accept food       increase the effectiveness of the administrative review
stamp benefits are subject to fines and/or removal from    process.
the program if FNS has found them to be out of
compliance with program requirements (accepting food       AROs served in only three locations—Washington,
stamp benefits for nonfood items, etc.). Retailers who     D.C., Dallas, and Redding (in Northern California)—and
disagree with FNS’ action may appeal it to the agency’s    appeal cases were assigned without regard for the
Administrative Review Branch (ARB). Administrative         appellant’s location. While the opportunity to request a
Review Officers (ARO) may sustain, reduce, or reverse      face-to-face meeting with the ARO is an option in the
the action, based on regulatory requirements and the       regulations, appellants requesting face-to-face meetings
evidence presented with regard to the violation.           with an ARO have had to travel thousands of miles to
                                                           exercise this option.
We reviewed 125 of the 1,024 appeals that were
accepted for a review over a recent 13-month period.       Appeal cases were not always scheduled in a timely
We concluded that the system did not always function in    manner. AROs decided when a case could be heard
a manner that resulted in consistent application of        and were not restricted by any regulatory timeframe.
policy.                                                    One quarter of the appeals accepted in 1999 had not
                                                           been heard by the time of our audit.
Cases were identified in which ARB rendered decisions
that were inconsistent from one ARO to the next. In our    We concluded that the system was not functioning as
review of five trafficking cases, two AROs used their      consistently as possible, potentially creating issues of
discretion to overturn cases involving small dollar        equity to retailers participating in FSP. We therefore
amounts while others let them stand. For EBT cases,        recommended that the appeals process be
some AROs would admit all evidentiary material while       strengthened to ensure consistent application of FNS
others would not. Based on our review of 14 cases          policy. FNS needs to continue its efforts to clarify
involving the transfer of ownership of a store (often      regulations, policies, and procedures that affect the
done to evade administrative punishment), some AROs        actions its field personnel take against accused violators
upheld the imposition of a monetary penalty, required by   and the rulings AROs hand down on those actions. The
regulation, while at least two other AROs did not.         FNS national office also needs to track ARO decisions
                                                           and clarify those that are ambiguous, in order to
                                                           maintain consistency in actions among field personnel.



                                                                                                                  15
Figure 1
Operation Talon Results
 CRIMES – UCR Categories                      AZ    CA    CO    CT   DE   DC   FL    GA    IL    IN    KS    KY    MD
 Group A Offenses
 Arson                                        1                           1                       2     2           1
 Assault Offenses: Aggravated Assault,
 Simple Assault, Intimidation                 20    5     9     4         3    5     23    13    26     4    16    73
 Bribery
 Burglary/Breaking and Entering               5     3     7               2    2     11          18     3    4     7
 Counterfeiting/Forgery                       8     2     7                    9     6           36     1    11    10
 Destruction/Damage/Vandalism of Property                                                                    1     11
 Drug/Narcotic Offense: Drug/Narcotic
 Violations, Drug Equipment Violations        116   36    15    3         4    15    14    361   52    12    45    35
 Embezzlement                                       2
 Extortion/Blackmail                          1
 Fraud Offenses: False Pretenses/Swindle/
 Confidence Game/Credit Card/
 Automatic Teller Machine Fraud,
 Impersonations, Welfare Fraud, Wire Fraud    22    313   4          4          6     2           8     5    62    35
 Gambling Offenses: Betting/Wagering/
 Operating/Promoting/Assisting Gambling,
 Gambling Equipment Violations,
 Sports Tampering                                                                                                   2
 Homicide Offenses: Murder and Nonnegligent
 Manslaughter, Negligent Manslaughter,
 Justifiable Homicide                                                          2     3      1     2           1     7
 Kidnapping/Abduction                                                                5                        1     2
 Larceny/Theft Offenses: Pocket-picking,
 Purse-snatching, Shoplifting, Theft from
 Building, Theft from Motor Vehicle,
 Theft of Motor Vehicle Parts or
 Accessories, All Other Larceny               35    14    48    3    1    1    15    16          123    1    21    71
 Motor Vehicle Theft                          2     1                          1     3            6                2
 Pornography/Obscene Material
 Prostitution Offenses: Prostitution,
 Assisting or Promoting Prostitution                                                              4                 2
 Robbery                                      1     2                          9     27     6     5     4     6     7
 Sex Offenses: Forcible Rape, Forcible
 Sodomy, Sexual Assault With An Object,
 Forcible Fondling                                                                   9      1     2     1           3
 Sex Offenses: Nonforcible Incest,
 Statutory Rape                               1     2                                             2
 Stolen Property Offenses (Receiving, etc.)         4                                                   4     3
 Weapon Law Violations                        1     2           1         1    1     4            2                 2
 Group B Offenses
 Bad Checks                                   3                                11    2           2     11    2     27
 Curfew/Loitering/Vagrancy Violations                                                                              1
 Disorderly Conduct                           1                                                         2          2
 Driving Under the Influence                  24    2                                            24     8     2
 Drunkenness
 Family Offenses, Nonviolent                        1                          1     5                  8     3
 Liquor Law Violations                                                                                              2
 Peeping Tom
 Runaway
 Trespass of Real Property                     2           3                                                        6
 All Other Offenses                           34    16    23    8         30   42    24    161   35    43    70    487
 TOTALS                                       277   405   116   19   5    42   119   154   543   349   109   248   795



16
MA   MI    MS   MN   MO    NC   NJ     NY   NV   OH    OK   OR    PA   TX    VA    WA   WI   Totals

     1                           2          1     1               1     3                     16

7    4          2    8           45         2    34    1     2    2     67   16    8    4     403
                                                                        5                      5
2    6               6     4     44    4    1    3           7          68    1    3    3     214
2    6     3         8     5     9          2    11          7    5    191    6         3     348
     4               1           1               1           3          9     1                32

14   16    1    21   46    9    224    7    2    148   1    111   3    252   34    22   9    1,628
     6                     4                2                                1                 15
                                                                                               1



     21              7     25   175    3         12    4    13         83    18    3    27    852



                                                                                               2


     1               2           4                2                     6     3    1          35
1    1                     1     1                2          1                1               16




     22    3         7     7     89    1    4    37    12   27    4    110   23    13   3     711
3    2                           7               4          11          20   5     1           68


                                                                       1           1           8
2    1               5     1     35    1         86    1     2    2    12     7         1     223


2               1    6           4                2                     9          1          41

                                 1               1                                             7
2    5     1         39          45         1    16                                           120
     1               5           8               4           4          5               2      43

     12    18        86                     21   7          3          23     3               231
                                                                                               1
                                                                                        1      6
                                            2                6         37                     105

                     2           60                          2    1     9               1     93
                                                                                              2

                                                  2                                            2
                     2                                                 1                       14
6    81    16   38   19    19   289    54   2    361        10    1    22    217   7    15   2,130
41   190   42   62   249   75   1043   70   40   734   19   209   19   933   336   60   69   7,372



                                                                                                      17
Finally, FNS needs to take into account the location of    • In a previously reported Michigan case, the owner of
case volume when filling future ARO vacancies. FNS           a large wholesale food distribution network pled guilty
generally agreed with our recommendations.                   to one count of trafficking in food stamps. The
                                                             distribution network owner conspired with a major
Trafficking Cases Yield Substantial Prison                   narcotics trafficker in Detroit and others to launder
Sentences, Fines, Restitutions                               several million dollars in USDA food stamps. He was
                                                             sentenced to 24 months’ imprisonment, 2 years’
• The owner of a convenience store in Miami was              supervised release, $2 million in restitution, and
  convicted at trial of conspiracy to commit food stamp/     participation in a substance abuse program. His
  EBT fraud and food stamp trafficking. An extensive         authorization to redeem food stamps was also
  financial investigation disclosed that the owner on        revoked. This investigation was conducted jointly by
  record was, in fact, a ghost owner and the true owner      members of the Organized Crime Drug Enforcement
  previously had been disqualified from FSP. The             Task Force, which included OIG, DEA, IRS, and the
  proceeds from illegal food stamp transactions were         Detroit Police Department.
  traced through numerous corporate accounts to the
  legitimate owner of the business, who was sentenced      • We previously reported the indictment of 20
  to 37 months in prison, followed by 3 years’               individuals and 4 corporations involved in an
  supervised release, and ordered to pay USDA                organized food stamp trafficking operation in
  $867,600 in restitution.                                   Honolulu, Hawaii. Our investigation, which was
                                                             conducted jointly with the FBI, the Immigration and
• The owner of a large grocery store in Campbell,            Naturalization Service (INS), and the Honolulu Police
  Ohio, was sentenced to 15 months’ imprisonment             Department, disclosed that the corporations’ officers
  and ordered to pay nearly $388,000 following his           financed large-scale purchases of food stamps by
  guilty plea to charges of conspiracy to traffic and        “runners” who, in turn, resold the food stamps to
  possess food stamps. The grocery store redeemed            various other retailers, as well as those financing the
  approximately $1.5 million in food stamps in 1995          operation. A review of various business records
  and 1996. Our investigation showed that the owner          disclosed that the retailers had more than $2 million
  personally accepted approximately $400,000 in food         in excessive redemptions over a 5-year period.
  stamps purchased by other large-scale food stamp           Nineteen of the individuals subsequently pled guilty
  traffickers in the area and redeemed them through          to various charges of food stamp trafficking, money
  his store. This investigation was conducted jointly        laundering, conspiracy, and tax evasion. To date, the
  with the IRS and FBI. Information from this                defendants have paid approximately $3 million in
  investigation assisted in the investigation and            fines, restitution, and civil forfeitures.
  prosecution of an additional 29 individuals in the
  Youngstown, Ohio, area for public corruption and         Update on Food Stamp and Marriage Fraud Scam
  organized crime.
                                                           As previously reported, 36 individuals were indicted and
• Our joint investigation with the Alameda County,         arrested on food stamp trafficking and INS charges in
  California, district attorney’s office regarding         Rochester, New York. Our investigation uncovered a
  persistent food stamp street trafficking in Oakland      complex criminal conspiracy in which food stamps were
  resulted in the conviction of 10 individuals who were    discounted and widely laundered to facilitate the
  involved in the illegal purchase and redemption of       smuggling and illegal entry of approximately 50 foreign
  over $430,000 in food stamps. The investigation          nationals from Pakistan, INS marriage fraud, and visa
  disclosed that the subjects, who were all friends or     fraud. All of the subjects now have pled guilty. The three
  relatives from a small town in Yemen, were involved      masterminds of the conspiracy, who are naturalized
  in a conspiracy to launder illegally obtained food       U.S. citizens, were sentenced to home confinement and
  stamps through various grocery stores they owned in      3 years’ probation. The remaining subjects were
  northern California. The defendants, some of whom        deported, with the exception of two still at large.
  received prison sentences, have been ordered to pay
  over $150,000 in restitution.




18
Family Members Jailed in Food Stamp, Prescription             All centers reviewed made errors in determining the
Narcotics Investigation                                       eligibility of some of their enrolled children and reporting
                                                              this information to the State agency, which is critical
Three members of a Columbus, Ohio, family were                because it affects the amount of a center’s payment.
sentenced to jail terms of 23 years, 10 years, and            Five centers served meals that did not meet program
3 years for operating what prosecutors described as the       nutritional requirements, eight did not exercise sufficient
largest prescription narcotics ring in the Columbus area.     care in handling food, and three violated State licensing
The mother and two sons were charged in a 64-count            regulations by having too few adults present for the
State indictment with various drug and food stamp             number of children in attendance. Three had
trafficking charges. A judge also ordered that the            deficiencies so serious that we recommended the State
residence where the “pill house” operated from be             agency immediately consider terminating these centers
closed down.                                                  from the program. These three centers also claimed
                                                              substantially more meals than they were entitled to
OIG and the Columbus Division of Police made multiple         claim. Furthermore, one was ineligible even to
purchases of prescription narcotics with food stamps,         participate in the program because it was a private for-
performed searches, and made a series of arrests.             profit, rather than not-for-profit, entity.
Seized were 46,800 unit doses of prescription narcotics
with an approximate street value of $125,000, two             We recommended that FNS require the State agency to
automobiles, more than $26,000 in currency, over              revise its center monitoring procedures to include
$10,000 in food stamps, jewelry, and several guns. This       routine unannounced visits to centers and to provide
case was investigated in conjunction with the Columbus        additional emphasis of licensing requirements and
Division of Police and the Franklin County Prosecutor’s       verification that centers are nonprofit food service
office, with assistance from the Ohio Pharmacy Board.         operations. We also recommended that the State
                                                              agency be required to take specific followup action to
First EBT Prosecution in Massachusetts Results in             review the operations of the three centers we identified
Prison Sentence                                               as having the most serious deficiencies and recover
                                                              almost $102,000 paid to the ineligible center. FNS
The owner of a grocery store located in Massachusetts         concurred and agreed to take corrective action.
was sentenced to 5 months in Federal prison and
ordered to pay $118,000 in restitution and $4,000 in          Audits and investigations of sponsors also continued to
fines after being convicted in a Federal food stamp           yield results.
scam. The owner exchanged EBT benefits for cash with
an undercover agent for approximately 65 cents on the         • A sponsor in Illinois charged unallowable,
dollar. This was the first EBT prosecution in                   unsupported, and questionable expenses of almost
Massachusetts.                                                  $165,000 to CACFP, including investments, personal
                                                                loans, and payments of personal income taxes for a
                                                                sponsor official. This sponsor also did not timely
 CHILD NUTRITION PROGRAMS
                                                                reimburse its childcare centers $2.5 million for meals
                                                                served during FYs 1997 and 1998. This sponsor is
Operation “Kiddie Care” Continues                               under investigation.

Operation “Kiddie Care,” our nationwide initiative to         • The owner of a Colorado daycare center pled guilty
identify, remove, and prosecute unscrupulous Child and          to inflating meal claim forms and was sentenced to
Adult Care Food Program (CACFP) sponsoring                      400 hours of community service and 12 years’
organizations (sponsors) continued to be successful.            probation. The sponsor repaid $70,000 to CACFP to
During this reporting period, in addition to our reviews of     offset the illegal claims.
sponsors of daycare homes, we found that the
California Department of Education (the State agency)         • In a previously reported case, a mother and her
needed to strengthen controls to improve its oversight of       daughter were each sentenced to 3 years’ probation
small, independent childcare centers. We reviewed 15            and to repay almost $24,000 in restitution for
childcare centers participating in CACFP in California          embezzling CACFP funds from their New York
and identified multiple problems at each.

                                                                                                                       19
     corporation. They used $75,000 in grant money for    WIC Food Delivery Systems Final Rule Published
     travel including a Hawaiian vacation, clothing,
     jewelry, and gifts.                                  Our June 1988 nationwide report on WIC vendor
                                                          monitoring and food instrument (i.e., vouchers for
• We determined that 59 providers of a Louisiana          purchasing food) delivery systems identified significant
  sponsor did not comply with record-keeping              levels of vendor abuses, including overcharges by
  requirements and did not operate during approved        76 percent of the vendors reviewed. It also identified
  hours of care and meal times. The State agency          deficiencies over the accountability and control of food
  terminated the sponsor from program participation.      instruments. These weaknesses showed that FNS
                                                          needed to improve its overall management of the WIC
• Sentencing is pending for a former Louisiana home       program by strengthening its monitoring efforts at FNS
  daycare provider who pled guilty in Federal court to    regional offices and at State and local agencies. FNS
  fraudulent use of CACFP funds. A total of 45 false      agreed to implement regulations to strengthen State
  claims amounting to more than $14,000 was               agency operations in vendor management and related
  submitted to the Louisiana Department of Education.     food delivery areas, and in December 1990 the
                                                          Department published a proposed rule to address these
• The husband and wife operators of a Utah                concerns. However, many comments submitted by
  sponsorship were sentenced for fraudulently             State and local agencies, vendors, Members of
  receiving payments under CACFP through kickbacks        Congress, and WIC participants indicated that
  from low-income families and submitting false claims    significant modifications to the proposed rulemaking
  to the Government. The husband was sentenced to         were required, warranting further opportunity for public
  27 months in prison and the wife to 30 months, and      input. The rule was retracted, eventually revised, and
  they were ordered to make restitution of $112,000.      republished as a proposed rule in June 1999. In
  Two employees who assisted the couple pled guilty       December 2000, the rule was published as a final
  and were sentenced to probation. The couple was         regulation. It strengthens vendor management in retail
  charged in November 1998 in a 117-count                 food delivery systems by establishing training
  indictment. They had issued monthly meal                requirements, criteria to identify high-risk vendors,
  reimbursement checks in the names of providers who      monitoring requirements, and compliance
  had quit the program, cashed meal reimbursement         investigations. The rule also strengthens food
  checks without the providers’ knowledge, falsified      instrument accountability and sanctions for participants
  daycare provider files for ineligible providers, and    who violate program requirements.
  demanded kickbacks from providers to remain in the
  program.


 SPECIAL SUPPLEMENTAL NUTRITION
 PROGRAM FOR WOMEN, INFANTS, AND
 CHILDREN (WIC)


Ohio State and Local Agencies Retained Federal
Funds in Excess of Needs

We found that the WIC Ohio State agency did not
adequately control administrative grant funds for FYs
1996 through 1999. Local agencies maintained excess
cash balances of up to $1.1 million during the year
because the State agency advanced funds quarterly
based on the local agency budgets rather than on actual
expenditures and amounts of unspent funds. Doing so
could cause funds to be drawn from the Federal
Treasury prematurely and increase the risk of
misappropriation.

20
Natural Resources and Environment


The Natural Resources and Environment mission area           • The forest plan does not adequately address the
plays a critical role in the sound stewardship of the          unique problems associated with land acquisitions
Nation’s land and natural resources. FS and NRCS               and management of urban lots, and the plan has not
share responsibility for fostering sound stewardship on        been updated since 1988, even though demands on
75 percent of the country’s land.                              forest resources proved to be greater than
                                                               anticipated.
NRCS and FS Work To Resolve Audit Issues in URP
Program                                                      • FS unnecessarily paid almost $300,000 by
                                                               repeatedly appraising private lots that were never
NRCS and FS have recently completed a detailed plan            acquired and making inappropriate payments during
that, if accomplished, should adequately address all the       the acquisition process.
major issues identified in our recent audit of the Urban
Resources Partnership (URP) program. The agencies            • FS appraisers approved questionable appraisal
have agreed to take necessary actions on any FY 1999           valuations that overstated the costs of the lands
and 2000 grants that did not comply with the proper            acquired.
program and funding authority. The agencies also
agreed to resolve funding issues for the URP                 • FS paid $444,000 for development and water rights it
coordinators, develop a strategy to review 1999 and            did not acquire, which could be used by other
2000 grants for cost allowability, and collect any             individuals without compensation to the Government.
unallowable costs. Finally, NRCS has recommended
that the URP program be terminated immediately.              • FS acquired lands and buildings, valued at
                                                               $9.5 million, that were inappropriate or unnecessary,
                                                               were left to deteriorate for years, and have been
 FOREST SERVICE (FS)
                                                               seriously damaged by vandals, resulting in
                                                               hazardous conditions for the public.
FS has the responsibility for providing leadership in the
protection, management, and use of the Nation’s forest,
grassland, and aquatic ecosystems on public and
private lands. The FY 2001 budget for FS is projected at
$4 billion, a significant increase over FY 2000
appropriations, while receipts generated through timber
sales and other activities are estimated at about $780
million. Major management challenges for FS include
key management and program delivery issues, land
exchanges, and grant and agreement administration.

Continuing Audits of FS Land Exchange Program
Uncover Additional Weaknesses

Questionable Practices Found on Lake Tahoe
Acquisitions and Urban Lot Management                        Building damaged in fire set by vandals. OIG photo.

Our review focused on the land acquisition and urban         Our review of the urban lot management program found
lot management program at Lake Tahoe, on the                 that FS has not adequately managed the
California-Nevada border. Since the passage of the           environmentally sensitive lands it has acquired. Almost
Santini-Burton Act of 1980, FS has purchased 3,494           75 percent of lots acquired by FS have not been
parcels of land that together comprise almost 12,000         maintained since their acquisition, increasing the risk of
acres at a cost of $97 million. While the land acquisition   hazards from dead or dying trees that could fall at any
program has been successful in purchasing lands that         time, heavy brush that is susceptible to fires, and
meet the broad intent of the acquisition authorities, we     encroachments from adjacent landowners.
found the following areas where inefficiencies could
have been overcome by better direction and planning:

                                                                                                                     21
FS estimates it needs at least $7 million to meet its        OIG Responds to Congressional and Secretarial
current maintenance obligation. FS also needs to             Concerns on Land Exchanges
consolidate its ownership of numerous, scattered urban
lots with those owned by the States of Nevada and            As a result of both OIG and U.S. General Accounting
California to achieve greater efficiency in management       Office (GAO) audits of the land exchange program,
and maintenance work. Finally, FS needs to upgrade its       Congressman George Miller of California requested on
computerized land acquisition database so that it can        July 12, 2000, that the Secretary of Agriculture direct FS
replace the use of unreliable and inefficient manual         to enact a moratorium on land exchanges until the
record-keeping systems.                                      agency demonstrated it could ensure all exchanges
                                                             were in the public interest and the land was valued in
FS concurred with all the audit findings and                 accordance with the law. In response, the Secretary
recommendations. FS also stated that it received             stated that he would direct the FS Chief to review all
congressional criticism which pointed out that the role of   corrective actions taken to date and their impact on the
FS in acquiring, administering, and maintaining urban        land exchange program, provide an action plan for any
lots at Lake Tahoe appears inappropriate and often           additional measures needed to further improve the
ineffective. FS has ceased further acquisitions of lots at   program, and provide a report to the Secretary within
Lake Tahoe until this issue is resolved.                     30 days.

Controls Needed on Acquisitions of Lands in                  On October 2, 2000, the FS Chief provided the
Congressionally Designated Areas                             Secretary with a report that outlined FS efforts to
                                                             strengthen the land exchange program, emphasizing
Our audit survey at the Pacific Northwest Region             improvements in the valuation function, organization,
disclosed that FS staff may be improperly valuing lands      training, accountability, and consistency. The report also
acquired in congressionally designated areas,                identified the remaining actions to be taken and a
specifically the Columbia River Gorge National Scenic        timeline for their completion.
Area (Columbia River), located in Oregon and
Washington. Since 1986, FS has purchased                     OIG concluded that the report and the accompanying
approximately 31,000 acres at Columbia River for about       action plan constituted a comprehensive document for
$44 million.                                                 improving accountability and consistency in the land
                                                             exchange program. FS has taken the initiative not only
FS improperly valued lands at Columbia River by using        to address OIG and GAO recommendations in previous
the historical zoning in place before 1986 rather than       audits but also expanded its corrective action to a
the more restrictive current zoning, as required by          national perspective when necessary. FS lands staff
Federal appraisal standards. To prevent the acquisition      stated that they have completed action on all OIG
of potentially overvalued land at Columbia River, FS has     recommendations and are preparing the documentation
suspended 35 land exchanges and purchases, valued            for final action. In the coming months, OIG plans to
at $48 million.                                              conduct a comprehensive nationwide review of the
                                                             actions FS has recently implemented to evaluate their
Because of concerns that inconsistent direction may          effectiveness.
have led to valuation errors in other regions, OIG issued
a management alert to FS, which took immediate action
                                                              NATURAL RESOURCES CONSERVATION
to address the potential problem. In August 2000, the
                                                              SERVICE (NRCS)
FS Deputy Chief sent a letter to all regional foresters on
valuations in congressionally designated areas to clarify
that all lands in such areas were subject to normal          NRCS provides technical assistance through local
valuation procedures unless congressional legislation        conservation districts to individuals, communities,
specifically directed otherwise. The Deputy Chief also       watershed groups, and tribal governments, as well as
instructed regional foresters to review all pending and      Federal, State, and local agencies. The agency’s work
completed appraisals done over the past 3 years to           focuses on erosion reduction, water quality
determine if valuations in specially legislated areas had    improvements, wetlands restoration and protection, fish
been properly conducted.                                     and wildlife habitat improvement, range management,
                                                             stream restoration, and water management.

22
NRCS Did Not Justify Implementation of EWP in                potential damages would be to those properties,
Arizona                                                      bringing into question a need for the program. We also
                                                             identified program participants who did not complete the
The Emergency Watershed Protection (EWP) program             work required under their EWP contracts. In other
provides assistance to relieve imminent hazards to life      cases, EWP participants were required to perform work
and property caused by floods, fires, windstorms, and        that achieved the same purpose as work that was to be
other natural occurrences. In June 1999, the Governor        performed and reimbursed by USDA under their existing
of Arizona issued a statewide drought proclamation and       Environmental Quality Incentives Program contracts.
sent it to the Secretary of Agriculture with a letter
requesting a determination of drought. USDA, through         We recommended that NRCS compare properties at
the Arizona NRCS, declared a drought emergency               risk with potential damages to ensure cost
throughout the State and planned to make the EWP             effectiveness. We also recommended that NRCS
program available to assist the local ranchers. OIG          terminate contracts where participants did not perform
reviewed the program after a whistleblower alleged that      the agreed-upon measures and collect the amount
the Arizona NRCS State office was unable to justify          disbursed for performing similar work under separate
EWP’s implementation. We determined that the                 NRCS programs. The NRCS national office agreed with
allegations raised by the whistleblower were valid.          our findings and recommendations.

EWP regulations require that the cost of the work            Based on the results of the audit, the funding for the
performed to reduce the threat to life or property be less   EWP program in the State of Arizona in the subsequent
than the anticipated damages. However, the Arizona           year was limited, and additional documentation was
NRCS State office spent over $11 million in EWP funds        required to substantiate the implementation of the
to reduce the threat to life or property, yet it did not     program.
identify what properties were threatened and what the




                                                                                                                  23
Rural Development


                                                                       qualify for an RHS loan yet provided no assistance to
 RURAL HOUSING SERVICE (RHS)
                                                                       other borrowers even though their financial
                                                                       circumstances were similar. In the worst cases, some
RHS is responsible for making available decent, safe,                  applicants did not receive enough non-RHS assistance
sanitary, and affordable housing and community                         to qualify for the program and therefore were denied
facilities through loans and grants for rural single-family            housing. As a result, by not treating all applicants in a
housing, apartment complexes, fire stations, libraries,                consistent and equitable manner, the grantee may be
hospitals, and clinics. For FY 2001, program funding for               subjecting RHS to complaints of unfair treatment. The
RHS loans and grants totaled $6.6 billion. RRH                         grantee also charged some borrowers with smaller
programs are vulnerable to program fraud and abuse                     housing lots the same price or more than it charged
because of the large cashflows ($640 million in rental                 their neighbors with larger lots and, in some cases,
assistance and over $12 billion in loans) involved.                    disregarded appraisal values.

Mutual Self-Help Housing Program Grantee Did Not                       We recommended that the Rural Development State
Have Controls and Procedures To Ensure That All                        office require the grantee to establish written
Borrowers Were Treated Equitably                                       procedures to equitably distribute non-RHS financial
                                                                       assistance and develop procedures that price the
Through the Mutual Self-Help Housing Program, RHS                      housing lots equitably and in a manner consistent with
awards grants to nonprofit organizations and                           the lot appraisals. The State office has agreed to the
government entities to provide technical assistance to                 finding and will implement the recommendations.
low-income borrowers who want to construct their own
homes. One grantee in California received nearly                       RHS Allows Effective Interest Rate To Fall Below
$1.4 million to administer the program and oversee the                 Required 1 Percent
construction of three mutual self-help housing projects,
and supervised the use of more than $15 million in RHS                 Over the last 5 years, RHS has applied over $388
construction loans and $1.8 million in non-RHS financial               million in subsidy toward borrower principal on single
assistance.                                                            and multifamily housing loans even though the enabling
                                                                       legislation allows the subsidy to be used to reduce
                                                                       interest charges only. Because the subsidy of RRH
                                                                       loans is granted for the life of a loan, we estimated that
                                                                       RHS would pay approximately $2.6 billion of principal if
                                                                       the 11,405 subsidized loans reach maturity.

                                                                       The Housing Act of 1949 allows the Secretary of
                                                                       Agriculture to assist borrowers with credits to reduce the
                                                                       effective interest rate to “not less than 1 percent, per
                                                                       annum.” However, RHS will pay $877 million more in
                                                                       subsidy on RRH loans than it should if the loans are
                                                                       financed for the entire term, because the effective
                                                                       interest rate does fall below 1 percent over the lifetime
                                                                       of a loan. RHS applies a fixed amount of interest
                                                                       subsidy to borrowers’ accounts rather than an amount
                                                                       that correlates to the interest accruing on the loan. As a
Typical mutual self-help home constructed by the grantee. OIG photo.   loan ages, interest decreases in proportion to the
                                                                       reduction of principal. The size of the fixed subsidy will
We found that the grantee did not have sufficient                      gradually overtake and ultimately exceed the interest
controls or written procedures to equitably distribute the             charge, cause the effective interest rate to fall below
$1.8 million of non-RHS financial assistance to the                    1 percent, and result in the subsequent application of
borrowers. The grantee provided some borrowers with                    subsidy against loan principal.
significantly more assistance than they needed to




24
We recommended RHS revise its methodology to                • The Corporation improperly approved and funded
prevent the effective interest rate from falling below        two loans totaling $155,000 to projects that did not
1 percent and implement procedures to ensure the              provide the requisite 75-percent minimum benefits to
collection of subsidy applied to the principal of single-     residents within the designated enterprise community
family housing loans, as well as the excess subsidy           boundaries.
applied to multifamily housing loans. RHS officials
disagreed with our findings and recommendations. They       • The Corporation’s rental payments for administrative
cited a 1979 OGC opinion; however, we interpreted the         office space exceeded the limits of allowable costs by
opinion differently. To resolve the issue, we have            approximately $16,000, when the Corporation
requested that RHS obtain another OGC opinion, which          improperly rented the space from a for-profit
has been done.                                                corporation controlled by a Corporation officer.

Administration of EC Program Needs Improvement              We recommended that Rural Development work with
                                                            the Corporation to improve overall operation of the EC
The Enterprise Community (EC) program is designed to        program, correct the defective housing repairs, collect
afford communities opportunities for growth and             the outstanding balance of the two improper loans,
revitalization. The EC program facilitates the targeting    recover the excess rental payments, and ensure future
and funding of Rural Development program monies to          rent payments are in compliance with established
needy rural communities designated as being most in         criteria. Rural Development has made considerable
need. The Northeast Louisiana Delta Community               efforts to address our recommendations. We are
Development Corporation (Corporation) is the lead           working with Rural Development on those
entity for the Northeast Louisiana Delta Enterprise         recommendations where there is disagreement.
Community, consisting of four census tracts in Madison
Parish, Louisiana, in the heart of one of the poorest       RRH Insurance Expenses Were Excessive
regions of the Nation. Our audit was prompted by
allegations made by Louisiana’s Legislative Auditor and     Of 22 States that we surveyed, 10 were either not
Louisiana’s 5th District Congressman, who alleged that      aware of or did not react to significant variances in
the Corporation did not accurately or timely report its     insurance cost per unit for similar RHS projects. This
budget information, funding requests, and achievement       occurred because they had either not assembled and/or
of performance measures (called benchmarks), allowed        not used the required statewide databases to determine
substandard housing repairs and improvements, and           the reasonableness of insurance costs. RHS projects
was involved in questionable use of program funds.          within the States were vulnerable to insurance company
                                                            overcharges. RHS responded that it will have use of
• The Corporation did not timely and accurately report      cost data by September 30, 2001, on their new
  its benchmark funding, progress reports, and              database to allow managers to make these
  performance data, as required by agency guidelines.       comparisons. They will also conduct internal reviews to
  Benchmark funding is the amount of funds budgeted,        place greater emphasis on enforcing accurate and
  requested, and received for a specific benchmark          consistent reporting. We are working with RHS to
  (measurable activity). As a result, objectives were not   ensure that these corrective actions are taken and to
  met, program accomplishments were misstated, and          develop interim controls to compare line item costs,
  the EC program could be subjected to abuse and            including insurance.
  misuse of funds.
                                                            Field visits to two management companies with high
• The Corporation was deficient in housing repairs and      insurance costs disclosed that one insurance agent
  improvements along with supporting documentation,         charged projects significantly more than the insurance
  contract execution, inspections, and payments to          company’s premium amount, unbeknownst to
  contractors. This resulted in substandard repairs,        management company officials. The RRH projects were
  safety hazards, program abuse, widespread criticism       charged approximately $652,000 in excess premiums,
  of the Corporation’s EC housing initiative, and           which, at 5-percent interest, would amount to an
  questionable costs of almost $90,000 for repairs of       estimated $75,800 of lost interest earnings to the
  the 11 properties reviewed.                               projects.



                                                                                                                  25
Excess insurance premiums are the difference between            Apartment Employee Solicits Bribe Payments
the estimated and the actual cost (i.e., premium) of the
insurance. The management company paid the                      In Missouri, an employee of a federally subsidized
premiums up to 5 months in advance of the coverage              apartment complex solicited and received $8,300 from
date. In December, the insurance agent would estimate           at least five prospective tenants—one an OIG
the insurance premiums for a policy that began                  informant—to move them to the top of the availability
coverage the following May. The management company              list, in violation of Rural Development program
paid the premium in December. In May, the insurance             regulations. The employee admitted wrongdoing, was
agent paid the actual premium to the insurance                  fired, was placed into a pretrial diversion program, and
company, but did not refund the difference (between the         paid $8,300 in restitution.
estimated and actual) to the management company.
During our review, the insurance agent returned about
                                                                 RURAL BUSINESS-COOPERATIVE SERVICE
$381,000 (about $376,000 attributable to RRH projects)
                                                                 (RBS)
in overcharges to the management company.

We found the management company charged projects                RBS enhances the quality of life for rural residents
twice for more than $122,000 in workers’ compensation           through grants or loans to rural-based cooperatives and
insurance in Mississippi. The management company                businesses and through partnerships with rural
also charged over $25,000 to the projects for an errors         communities. RBS national staff and Rural
and omissions insurance policy and fidelity coverage            Development State office staff promote stable business
the company should have paid. The management                    environments in rural America through financial
company and insurance agent charged the projects an             assistance, business promotion, and technical
annual percentage interest rate of up to 35 percent,            assistance, as well as research, education, and
resulting in insurance financing expenses of about              information. Considered an area of major management
$18,500 without Rural Development consent.                      challenge, issues include unauthorized assistance,
                                                                improper exceptions to Business and Industry (B&I)
We found that the second management company had                 loan financial underwriting regulations, deficient lender
established a $25,000 insurance deductible, which               underwriting reviews and servicing of guaranteed B&I
exceeded the deductible allowed by regulations and              loans, and underreporting of problems with guaranteed
resulted in a $21,500 loss to the project. This company         B&I loans.
failed to disclose its identity-of-interest construction firm
and improperly charged projects for fidelity coverage           Administrator Jeopardizes B&I Loan Program
(protects management from the results of employee
errors).                                                        The integrity of the B&I Loan Program was jeopardized
                                                                by the former Administrator’s issuing 59 general
We recommended RHS instruct the States to                       exceptions to regulatory standards in authorizing loan
(1) analyze insurance cost data to allow meaningful cost        applications totaling over $80 million. While the system
comparisons and follow up on questionable costs, (2)            of internal controls at the State and national offices, as
require management companies to classify expenses               designed, was generally adequate to protect the
properly, (3) require the cited management companies            integrity of the program, the Administrator granted
to limit insurance charges to projects to only those            nonstandard treatment and made exceptions to
allowable, and (4) ensure management companies are              important regulatory provisions relating to credit quality,
obtaining insurance policies with deductibles that meet         collateral, and basic eligibility for 23 applicants.
regulations. In addition, RHS servicing officials should
require the management companies to repay projects              The former Administrator did not have the regulatory
for the unallowable charges.                                    authority to waive those requirements, did not record
                                                                the basis for his exceptions, sometimes cited inaccurate
RHS officials stated that a number of steps are being           facts, and overruled competent detailed financial pro
taken to ensure adequate internal controls are in place         forma analysis by professional staff without providing
to address OIG’s recommendations. We are working                any alternative analysis. The former Administrator also
with RHS to ensure that the controls are sufficient.            disbanded a longstanding national office loan committee



26
that reviewed high-value or unusual loan requests.
During the 4 months of the committee’s hiatus, the
Administrator authorized over $34 million in loans to
seven interrelated entities that did not meet many B&I
regulations. He issued numerous exceptions to each of
these entities as they, individually and as a group, did
not meet credit, collateral, and job creation regulations.

We recommended that documentation supporting the
Administrator’s exceptions to regulations be provided to
the Under Secretary and OGC, and that this
documentation identify any professional or analytical
reasons for the exceptions. We recommended that the
longstanding national office loan committee be
continued. We also recommended that the extant loan
approvals based on the Administrator’s exception
authority be reevaluated and approval canceled if the
loans do not meet regulatory standards.




                                                             27
Financial, Administrative, and Information
Technology

 FINANCIAL MANAGEMENT                                         FSA need to perfect models and gather the necessary
                                                              data to support implementation of the model that will
                                                              accurately reflect the costs of their loan programs; and
One of the greatest management challenges                     the Department needs to complete implementation of its
confronting USDA is achieving financial accountability.       new accounting system—the Foundation Financial
                                                              Information System (FFIS).
Financial Statement Audits
                                                              These major problems contribute to conditions that keep
The Chief Financial Officer’s Act and the Government          the Department from achieving a clean audit opinion.
Management Reform Act require USDA to prepare and             For example, we have been unable to substantiate the
audit financial statements. While some of the                 Department’s fund balance with the Department of
Department’s agencies have achieved success with              Treasury (Treasury), reported at over $38 billion. This
their financial systems and received clean financial          account represents monies that can be spent in the
opinions, other major systems have not. FNS, RMA,             future for authorized transactions. Last year we reported
and the Rural Telephone Bank received unqualified             that Treasury records and the Department’s records
opinions in FY 2000, which means their financial              were out of balance by $5 billion. At the close of FY
statements fairly presented their financial position. But     2000, the difference had been reduced to about
FS and CCC were unable to complete their financial            $450 million. In other words, the Department still has
statements in time for us to audit them by the                reported differences with Treasury of this amount,
legislatively mandated timeframe of March 1. Also,            $450 million, and does not know the reason why. The
Rural Development has not been able to properly               situation is akin to that of a personal checking account.
determine the cost of its loan programs. Thus, it             The check register says one thing, but the bank says
received a qualified opinion.                                 the account holder spent a higher amount, and the
                                                              account holder cannot figure out the difference.
USDA—FY 2000 Consolidated Financial Statements:
Disclaimer of Opinion                                         FS has been impaired by a lack of accountability over
                                                              its assets. Historically, it has not been able to develop a
The individual conditions of the agencies when taken          meaningful asset valuation because it did not know
together mean that for the past 7 fiscal years—1994           what assets had been acquired, when the assets were
through 1999 and in our just released audit for 2000—         obtained, or how much they cost. While FS has
we have issued a disclaimer of opinion on the                 improved in recording assets, asset valuation continues
Department’s consolidated financial statements. This          to be a problem. To overcome this problem, FS needs
disclaimer means that the Department overall does not         to undertake an extraordinary level of effort. FS must
know whether it correctly reports all collected monies,       establish accountability and develop acceptable
the cost of its operations, or other meaningful measures      accounting records in order for agency management to
of financial performance. Most important, some USDA           fulfill its financial management and stewardship
managers do not have reliable financial information           responsibilities.
regarding how much has been spent on the cost of
program operations and are being forced to make               Rural Development—FY 2000 Financial Statements:
decisions “in the dark” without solid financial data. Not     Qualified Opinion
only can flawed decisions result, but also the integrity of
program dollars is put at risk of misuse or theft. Given      Our qualification of opinion (for the last 7 years)
USDA’s annual budget authority of about $82 billion in        stemmed from Rural Development’s inability to ensure
FY 2001, the importance of having a strong financial          that the cost of its direct loan programs is reasonably
reporting capability cannot be overstated.                    estimated (at over $11 billion) as required by the Credit
                                                              Reform Act of 1990. In FY 1999, the Department
The main problems that USDA has to solve to improve           established a task force, to include the Office of the
its financial accounting, which will result in improved       Chief Financial Officer (OCFO), GAO, and OIG, that is
opinions on these financial statements, include the           making progress to resolve credit reform issues.
following: FS needs to improve its accountability and         However, much work remains.
valuation of its assets; Rural Development, CCC, and



28
We recommended that Rural Development develop
                                                             FINANCIAL-RELATED AUDITS
methods and measures that comply with Federal
accounting standards to estimate future losses for loans
made before 1992. No further recommendations were           Department Should Strengthen Controls Over
made because of Rural Development’s participation in        Unliquidated Obligations
the credit reform task force. Rural Development
generally agreed with the issues and recommendation         For FY 1999, USDA reported more than $27 billion in
in the report.                                              unliquidated obligations. Departmental Regulation (DR)
                                                            2230-001 was designed to establish departmental
USDA Working Capital Fund (WCF)—FY 1999                     controls and protect against abuse of unliquidated
Financial Statements: Adverse Opinion                       obligations, with required reviews and disposition of
                                                            inactive, unliquidated obligations through deobligation or
In our opinion, the financial statements of WCF did not     reprogramming. However, our current review and two
present fairly, in all material respects, the financial     recent OIG audits have revealed significant weaknesses
position and results of operations. The accounting          in applicable controls.
deficiencies besetting WCF are pervasive and
pronounced.                                                 A February 2000 audit of the Rural Utilities Service’s
                                                            telephone loan program policies and procedures
WCF uses the problem-ridden National Finance Center         identified loans over 5 years old with unused balances
(NFC) Central Accounting System as its primary              of about $602.3 million that should have been reviewed
financial management system. As a result, WCF               to determine those unliquidated loans that no longer
officials function without reliable, accurate, and          represent valid obligations and could have been
consistent financial information for operations, payroll,   deobligated. A March 2000 audit of NRCS’ contracting,
and other administrative expenses processed by NFC,         procurement, and disbursement activities at the
which exceeded $250 million for the fiscal year. WCF is     National Business Management Center in Fort Worth,
scheduled to convert to the Department’s new FFIS on        Texas, revealed the theft of more than $311,000 and
October 1, 2001. Further, NFC did not always perform        unauthorized procurement expenditures of more than
timely and/or accurate FY 1999 billings of WCF              $473,000. In both instances, prior-year unliquidated
customers, because proper internal controls had not         obligations were used as sources of funding, made
been established. As a result, customers were not           possible, in part, by deficiencies in internal controls.
always able to effectively manage their resources.
                                                            We concluded that departmental and agency policies
Preparation and support for the statements were             did not provide adequate controls to ensure that
inadequate. WCF was unable to provide us with               unliquidated obligations were properly managed. We
subsidiary ledger detail and aging schedules to support     recommended that the Department update and reissue
the accounts receivable balance reported on the             its regulation (circa 1984) to strengthen accountability
financial statements. WCF continued to make material        and reduce the vulnerability to waste and abuse.
adjustments to revenue at fiscal yearend without
adequate research or supporting documentation and did       Federal Financial Management Improvement Act
not reconcile the income shown in the general ledger        (FFMIA)
with the amounts actually billed and collected.
                                                            Currently not in compliance with FFMIA requirements,
We made 22 recommendations directed at                      USDA, as required by law, has developed an overall
strengthening WCF’s accounting processes and                remediation plan, with detailed remediation plans in
controls. OCFO/NFC generally agreed and pledged             effect for CCC, Rural Development, FS, and NFC. The
corrective action.                                          Department’s plan is long term in nature. Generally, the
                                                            remedial action completion dates have been extended
                                                            an additional year due to the agencies’ inability to
                                                            comply with applicable accounting standards.
                                                            Implementation of the Department’s new accounting
                                                            system has an estimated completion date of October 1,



                                                                                                                   29
2002, while Rural Development’s and FS’ target dates      The Department has not yet fully implemented a
have been extended to September 2003 and October          comprehensive security program, attributable to a lack
2002, respectively.                                       of funding and personnel as well as isolated approaches
                                                          taken by individual agencies. However, the Office of the
                                                          Chief Information Officer (OCIO) hired a senior manager
 INFORMATION TECHNOLOGY (IT)
                                                          for cyber-security in February 2000, assigned staff
                                                          members to work on the cyber-security team, and is
One of the greatest management challenges                 establishing a comprehensive information security
confronting USDA is ensuring the security of its data     program and a Risk Assessment Work Group, with
from manipulation, theft, or other misuse.                significant actions substantially slated for completion by
                                                          the end of FY 2001.
Security Over USDA IT Resources Needs
Improvement                                               We recommended that OCIO establish a
                                                          comprehensive security program within USDA to
We identified widespread and serious weaknesses in        include policies addressing agency and departmental
the Department’s ability to adequately protect assets     security plans and risk assessments, planning for
from fraud and misuse, sensitive information from         contingencies and continuity of operations, system
inappropriate disclosure, and critical operations from    certifications, and system vulnerability reviews.
disruption. Significant information security weaknesses
were reported in each of the seven agencies tested,       Security Over Regional IT Systems Needs
with inadequately restricted access to sensitive data     Improvement
being the most widely reported problem. Our
assessments identified nearly 3,300 high and medium       Our review disclosed that the FS Pacific Northwest
IT security vulnerabilities and numerous low-risk         Region’s controls over access to the USDA IT systems
vulnerabilities, as shown in figure 2.                    it maintained to carry out agency programs and manage
                                                          Federal resources needed improvement. The region’s
                                                          Intranet and connected computers, routers, etc., were
Figure 2                                                  vulnerable to unauthorized intrusions, both internal and
                                                          external.
Total Vulnerabilities
                                                          • Security measures did not meet industry standards.
                                                            Of 126 regional systems tested, 124 contained 72
              2,345
                                                            areas highly vulnerable to penetration and
                                                  6,352     119 moderately vulnerable areas. Regional actions
                                                            taken during our audit have strengthened these
                                                            areas.
       948
                                                          • Individuals were not forced to change their
                                                            passwords with a required frequency, the regional
                                                            systems did not limit the number of logon attempts a
                                                            user could make with an incorrect password, and
                                                            personnel who left the region were still authorized to
       High                                                 access the system.
       Medium
                                                          The region also could not show that it had received
       Low                                                approval from OCIO for use of an Internet service
                                                          provider outside the FS computer system.

                                                          We recommended that the region eliminate the
                                                          vulnerabilities we identified, limit access to the system
                                                          to only those users who need access, strengthen logon



30
and password management controls, and update its          We found that 16 of 21 performance indicators we
procedures to ensure that any agreements it has with      reviewed were inaccurate, unsupported, and/or
Internet service providers receive the appropriate        ambiguous. Rural Development did not have viable
approval.                                                 verification and validation processes over performance
                                                          results, and performance indicators did not always
                                                          relate to the goal they were intended to measure. In
 GOVERNMENT PERFORMANCE AND
                                                          addition, the Management’s Discussion and Analysis
 RESULTS ACT OF 1993 (GPRA)
                                                          section of the consolidated financial statements for
                                                          FY 2000 needed to contain performance indicators that
Rural Development’s Performance Report Did Not            were outcome oriented.
Meet GPRA Requirements
                                                          We recommended that Rural Development implement
In response to a Congressional request, we initiated an   procedures to ensure the collection and reporting of
ongoing examination of agencies’ activities pursuant to   accurate, complete, and meaningful performance data.
GPRA. This period, we reviewed Rural Development.         This should include the establishment of internal
Rural Development had not met the requirements for        controls and the definition of each performance indicator
the implementation of GPRA, resulting in an Annual        and the documentation needed to support the
Performance Report that did not provide reliable          indicators. We also recommended that the
information about actual performance and progress in      Management’s Discussion and Analysis section of Rural
achieving the mission area’s goals and objectives. The    Development’s financial statements include outcome-
Annual Performance Report for FY 1999 was not             oriented performance indicators that directly relate to
accurate and supported in all cases, and results          vital agency goals. The mission area and agencies
reported were not verified and validated. Rural           generally agreed with our findings and are taking
Development’s implementation of GPRA was deficient        corrective actions.
because it had not issued guidelines or procedures for
accumulating, collecting, validating, and reporting the
performance results or for documenting the
methodology used in any of these processes. Because
of Rural Development’s weak controls, readers of the
performance report, including those in Congress, should
not use the report as credible evidence of
accomplishments or as a basis for decisionmaking.




                                                                                                                31
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings which must be completed before the agency can act to complete management decisions.


 New Since Last Reporting Period


                                                                                                        Amount With
                                                                                    Total Value           No Mgmt.
                                                                                    at Issuance           Decision
Agency             Date Issued                       Title of Report                (in dollars)         (in dollars)

CCC                  07/13/00                    1. Audit of CCC                    520,150,596                    0
                                                    Financial Statements
                                                    for FY 1999
                                                    (06401-11-FM)

FSA                  08/22/00                    2. LaFlore County FSA                 228,764              228,764
                                                    Office Disaster Program
                                                    (03006-20-Te)*

                     09/29/00                    3. 1998 Crop Loan                     332,883                     0
                                                    Deficiency Payment
                                                    Activities (03601-17-KC)

FSIS                 06/21/00                    4. Implementation of the                     0                    0
                                                    Hazard Analysis and
                                                    Critical Control Point System
                                                    (24001-3-At)

                     06/21/00                    5. Imported Meat and Poultry                 0                    0
                                                    Inspection Process
                                                    (24099-3-Hy)

Multiagency          02/22/00                    6. Audit of FY 1999 USDA 18,650,000,000                           0
                                                    Consolidated Financial
                                                    Statements (50401-35-FM)

                     04/17/00                    7. Single Audit of the IL             140,300              140,300
                                                    Department of Agriculture
                                                    (50018-7-Ch)

                     09/28/00                    8. Crop Loss Disaster               10,728,872         10,454,325
                                                    Assistance Program
                                                    (50801-3-KC)




32
                                                                                                        Amount With
                                                                                   Total Value            No Mgmt.
                                                                                   at Issuance            Decision
Agency             Date Issued                       Title of Report               (in dollars)          (in dollars)

                     09/29/00                    9. Audit of Advances to              397,108                73,768
                                                    Nonprofit Organizations for
                                                    Grants and Cooperative
                                                    Agreements (50801-11-TE)

Rural                02/22/00                    10. Audit of FY 1999 Rural        60,673,267                      0
Development                                          Development Financial
                                                     Statements (85401-1-FM)

RHS                  05/25/00                    11. RRH Nationwide Initiative      4,922,879             4,919,579
                                                     in MO (04801-2-KC)*

RMA                  03/30/00                    12. Audit of RMA/FCIC Financial             0                     0
                                                     Statements for FY 1999,
                                                     Report on Management
                                                     Issues (05401-8-FM)


 Previously Reported but Not Yet Resolved


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but
for various reasons, the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.

APHIS                03/07/00                    13. Plant Protection and               2,851                 2,851
                                                     Quarantine in Florida
                                                     (33004-1-At)

ARS                  02/08/99                    14. Audit of J.A. Jones              160,233               160,233
                                                     Management Services,
                                                     CY’s 1994 and 1995
                                                     (02017-4-AT)

CR                   02/27/97                    15. Evaluation Report for the               0                     0
                                                     Secretary on CR
                                                     Issues - Phase 1
                                                     (50801-2-HQ)

                     09/30/98                    16. Evaluation of CR Efforts                0                     0
                                                     To Reduce Complaints
                                                     Backlog (60801-1-HQ)

                     03/24/99                    17. Evaluation of CR Management             0                     0
                                                     of Settlement Agreements
                                                     (60801-2-HQ)


                                                                                                                       33
                                                                         Amount With
                                                        Total Value        No Mgmt.
                                                        at Issuance        Decision
Agency   Date Issued      Title of Report               (in dollars)      (in dollars)

           03/10/00    18. Evaluation Report for the              0               0
                           Secretary on CR Issues - Phase 7
                           (60801-3-HQ)

           03/10/00    19. Status for Recommendations             0               0
                           Made in Prior Evaluations
                           of Program Complaints
                           (60801-4-HQ)

CSREES     03/27/97    20. Use of 4-H Program Funds -         5,633               0
                           University of Illinois
                           (13011-1-Ch)

           03/31/98    21. National Research Initiative 32,757,862       32,757,862
                           Competitive Grants Program
                           (13601-1-At)

FNS        09/22/97    22. CACFP - Sponsor Abuses           56,296           56,296
                           (27601-7-KC)*

           12/07/98    23. CACFP - Family Day Care         338,100          338,100
                           Services, Inc. - West Palm
                           Beach, FL (27601-7-At)*

           07/29/99    24. FSP – Cross State Match         394,025          394,025
                           (27601-9-KC)*

           03/22/00    25. CACFP – National Initiative    319,279                 0
                           To Identify Problem Sponsors -
                           Wildwood (27010-3-KC)

FS         07/18/96    26. FY 1995 FS Financial    1,150,183,750       1,150,183,750
                           Statements (08401-4-At)

           09/30/96    27. Real and Personal Property             0               0
                           Issues (08801-3-At)

           03/31/97    28. Research Cooperative and     468,547             468,547
                           Cost Reimbursable Agreements
                           (08601-18-SF)

           07/13/98    29. FY 1997 FS Financial    1,914,800,000       1,914,800,000
                           Statements (08401-7-At)




34
                                                                            Amount With
                                                           Total Value        No Mgmt.
                                                           at Issuance        Decision
Agency   Date Issued       Title of Report                 (in dollars)      (in dollars)

           09/24/98    30. Assistance Agreements            7,098,026          200,795
                           to Nonprofit Organizations
                           (08801-2-Te)

           02/23/99    31. FY 1998 FS Financial    8,275,700,000                     0
                           Statements (08401-8-At)

           02/25/00    32. FY 1999 FS Financial    1,091,300,000          1,091,300,000
                           Statements (08401-9-At)

FSA        09/30/93    33. Disaster Program,                5,273,795        1,482,759
                           Nonprogram Crops,
                           Mitchell County, GA
                           (03097-2-At)*

           09/19/95    34. Management of the               75,175,410          909,437
                           Dade County, FL, FSA
                           Office (03006-1-At)*

           09/28/95    35. Disaster Assistance              1,805,828        1,805,828
                           Payments,
                           Lauderdale, TN
                           (03006-4-At)*

           01/02/96    36. 1993 Crop Disaster               2,469,829        2,393,241
                           Payments Brooks/
                           Jim Hogg, TX
                           (03006-1-Te)

           05/02/96    37. Disaster Assistance              2,177,640        2,145,533
                           Program –1994,
                           Thomas County, GA
                           (03006-13-At)*

           09/30/96    38. 1994 Disaster Assistance         2,666,383        1,690,606
                           Program, ME (03601-1-Hy)*

           09/30/98    39. Wool and Mohair Payment          2,432,120        2,432,120
                           Limitation, Val Verde
                           County, TX (03099-20-Te)

           03/30/99    40. Payment Limitation - Mitchell      881,924          881,924
                           County, GA
                           (03006-20-At)*




                                                                                          35
                                                                               Amount With
                                                                Total Value      No Mgmt.
                                                                at Issuance      Decision
Agency        Date Issued       Title of Report                 (in dollars)    (in dollars)

                03/31/00    41. Emergency Conservation           2,952,472       131,010
                                Program
                                (03601-15-KC)

Multiagency     03/25/98    42. Verification of Data Input          27,259         27,259
                                Into NFC Payroll/Personnel
                                System (50099-11-FM)

                09/30/98    43. CSREES Managing Facilities 3,824,211            2,651,292
                                Construction Grants
                                (50601-5-At)

                02/01/99    44. Audit of FY 1998           9,529,862,000                0
                                Rural Development
                                Financial Statements
                                (50401-28-FM)

                03/31/99    45. Private Voluntary           18,629,558         18,501,064
                                Organization Grant Fund
                                Accountability (50801-6-At)

NRCS            03/31/00    46. NRCS Contracting,            784,562             473,368
                                Procurement, and Disbursement
                                Activities (10601-1-Te)*

RBS             10/01/99    47. B&I Loan - Indiana Farms           595,511       595,511
                                (34099-3-Ch)

                07/01/00    48. Rural Business                   1,620,256      1,620,256
                                Enterprise Grant -
                                Vivero Caimito Project
                                (34004-4-Hy)

                09/27/00    49. B&I Loan - Ottman                 4,200,00       4,200,00
                                (34004-6-Hy)

RHS             08/10/98    50. Self-Help Housing Program -               0             0
                                Grizzly Hollow Project, Galt,
                                CA (04801-2-SF)*

                01/08/99    51. RRH Program – Dujardin             195,694       195,694
                                Property Management, Inc.,
                                Everett, WA (04801-5-SF)*

                03/25/99    52. Guaranteed Rural Housing 139,220,122             215,030
                                Loan Program (04601-2-At)



36
                                                                         Amount With
                                                        Total Value        No Mgmt.
                                                        at Issuance        Decision
Agency   Date Issued      Title of Report               (in dollars)      (in dollars)

           03/31/99    53. RRH – Nationwide Initiative     233,958          148,442
                           in NE – Bosley Management,
                           Inc., Sheridan, WY
                           (04801-3-KC)*

           04/20/99    54. RRH Program – Owner/            346,685          346,685
                           Manager, Olympia, WA
                           (04801-6-SF)*

           09/23/99    55. RRH Initiative – Calhoun      12,931,081               0
                           Property Management
                           (04801-11-Te)*

RMA        01/31/94    56. Tobacco Indemnity                88,631           88,631
                           Payments, Mitchell
                           County, GA (05099-22-At)

           09/30/97    57. Crop Insurance on Fresh       15,082,744               0
                           Market Tomatoes
                           (05099-1-At)

           04/10/98    58. Crop Insurance Claims           126,787                0
                           (05601-1-KC)

           12/16/98    59. Crop Insurance on              3,963,468       3,963,468
                           Nurseries (05099-2-At)*

           03/30/00    60. FY 1999 FCIC Financial                 0               0
                           Statements (05401-8-FM)

RUS        02/11/00    61. Telephone Loan             2,476,838,023    2,476,838,023
                           Program Policies and
                           Procedures
                           (09016-1-Te)*




                                                                                       37
 Audits Without Management Decision - Narrative for New Entries




1. Audit of CCC Financial Statements for FY 1999,           has taken action to provide for an annual review of
   Issued July 13, 2000                                     county committee yield estimates for each applicable
                                                            commodity, including the proposed timeframes for
We have been unable to reach management decision            implementation.
for seven recommendations. CCC needs to conduct a
study, in consultation with OCFO, to ensure that its        4. Implementation of the Hazard Analysis and
financial management operations are objectively                Critical Control Point System, Issued June 21,
evaluated and appropriate organizational changes,              2000
system enhancements, and internal control structures
are implemented to correct the problems with CCC            OIG reported that FSIS must assert its authorities under
foreign accounting operations. Also, CCC needs to           the Hazard Analysis and Critical Control Point system
improve the way in which foreign accounting                 for the system to reach its full potential. Because FSIS
reconciliations are conducted, because they are             was uncertain of its authorities and had not established
untimely prepared and do not facilitate the preparation     needed procedures, it had reduced its oversight to less
of necessary accounting adjustments before the close        than what was prudent and necessary for the protection
of the fiscal year. Finally, CCC needs to provide revised   of the consumer. Management decisions have been
timeframes for accomplishing all corrective actions.        accepted for 7 of the 20 recommendations. We continue
                                                            to work with FSIS to resolve the remaining
2. LaFlore County FSA Office Disaster Program,              recommendations.
   Issued August 22, 2000
                                                            5. Imported Meat and Poultry Inspection Process,
Of 11 producers’ disaster claims for hay and/or pasture        Issued June 21, 2000
losses in 1998 and 1999, 9 inaccurately self-certified
disaster losses; 7 improperly claimed duplicate losses      The audit found that detailed control processes and
under the 1998 Crop Loss Disaster Assistance Program        procedures for determining the equivalency or the
(CLDAP) and the Livestock Assistance Program (LAP)          continuing eligibility of foreign inspection programs to
and were overpaid almost $162,000; and 5 inaccurately       export meat and poultry products to the United States
reported disaster acreage, types of pasture losses, and/    were not adequately developed, were not incorporated
or livestock on hand during the grazing period and were     in formal agency procedures for distribution to
ineligible for 1998 and/or 1999 disaster benefits of over   responsible agency personnel, or were not functioning
$65,000. This matter was referred for investigation. We     as required by regulation. Management decisions have
recommended, and FSA agreed, to collect the                 been reached on 31 of the 35 recommendations.
questioned payments and review remaining applications       Nothing came to our attention during this audit that
in the county for duplicate benefits under CLDAP and        indicated FSIS allowed products to enter U.S.
LAP.                                                        commerce. We continue to work with FSIS to achieve
                                                            management decision on the remaining
3. 1998 Crop Loan Deficiency Payment Activities,            recommendations.
   Issued September 29, 2000
                                                            6. Audit of FY 1999 USDA Consolidated Financial
Of 336 producers, 106 (32 percent) received erroneous          Statements, Issued February 22, 2000
Loan Deficiency Payment and price support loan
disbursements totaling $333,000. We concluded that          Management decision has not been reached on one
FSA needed to take aggressive action to strengthen or       recommendation. A methodology is needed to establish
fully implement existing program controls. We have          an allowance for losses of accounts receivable at NFC.
reached management decision for 11 of the                   OIG continues to believe that the allowance
12 recommendations. We need to be advised that FSA          methodology for establishing bad debts needs to be



38
revised to include documented analyses of historical      concurred with a recommendation that requires $73,768
performance, including aging of debts. Timeframes for     in interest earned on advanced funds be returned to the
revising this methodology also need to be addressed.      Department of the Treasury; we await documentation of
                                                          actions accomplishing this. Another recommendation
7. Single Audit of the Illinois Department of             requests that OCFO require each USDA agency to
   Agriculture, Issued April 17, 2000                     review existing advances and recover all interest earned
                                                          on advanced Federal funds, ensure all advances are
The State charged the same amount as both the direct      placed in interest-bearing accounts, and ensure
and indirect payroll costs to the Federal Cooperative     disbursements are made by grantees immediately upon
Meat and Poultry Inspection Program. As a result, the     receipt of an advance. OCFO generally concurred but
program was overcharged $13,584. The report               disagreed that the agency review be conducted before
recommended FSIS ensure that the FY 1999 Financial        issuance of the proposed rule, part 3020. OCFO also
Status Report be adjusted to deduct the improper          needs to provide timeframes for all actions.
charges and the State implement procedures to
preclude future similar charges. The State also did not   10. Audit of FY 1999 Rural Development Financial
maintain support for how employee time was allocated          Statements, Issued February 22, 2000
to the Federal Cooperative Meat and Poultry Inspection
Program and the Brucellosis Information System            Management decision has not been achieved for one
Program. The State improperly charged $126,716 to the     recommendation. Rural development agreed with
Federal programs. The report recommended FSIS             OIG’s position but states that it needs to work with
require the State to reimburse any unsupported costs.     OCFO to develop the recommended long-range plan.
To achieve management decision, FSIS needs to             Rural Development has converted to FFIS to account
provide documentation that questioned costs have been     for its salary and administrative expenses, and agreed
collected and that the State has implemented controls.    to participate in any departmental initiatives to review
                                                          other systems. However, management decision cannot
8. Crop Loss Disaster Assistance Program, Issued          be reached until OCFO begins to plan the reviews and
   September 28, 2000                                     provides a timeframe for accomplishing the
                                                          contemplated actions.
Some producers received CLDAP benefits based on
inflated crop insurance indemnities, did not accurately   11. RRH Nationwide Initiative in Missouri, Issued
report required program data, did not meet eligibility        May 25, 2000
requirements, or improperly received both single and
multiyear program payments. FSA provided sufficient       At the time of report issuance, we requested that RHS
information to reach management decision on 3 of the      not take any administrative action on the subject
15 recommendations. The RMA response to three             company until OIG-Investigations clears such action.
recommendations was inadequate.                           OIG-Investigations is continuing to work with the U.S.
                                                          attorney’s office on these cases. No action is required
9. Audit of Advances to Nonprofit Organizations           by RHS until those proceedings have concluded.
   for Grants and Cooperative Agreements, Issued
   September 29, 2000                                     12. Audit of RMA/FCIC Financial Statements for
                                                              FY 1999, Report on Management Issues, Issued
For two recommendations, OCFO needs to develop,               March 30, 2000
implement, and successfully test a strategy that
compels USDA agencies to comply with the cash             Management decision has not been reached for two
management controls of Title 7, CFR 3019, and needs       recommendations. RMA reports that its budget request
to strengthen DR 2120-1, Cash Management, to provide      includes funds to purchase a software package to
that controls be established to ensure compliance with    secure the transmission of data; we need an
the Department’s cash management practices through        implementation date.
publication of the proposed rule, part 3020. OCFO




                                                                                                                39
 Indictments and Convictions

Between October 1, 2000, and March 31, 2001, OIG            Indictments and Convictions
completed 221 investigations. We referred 146 cases to      October 1, 2000 - March 31, 2001
Federal, State, and local prosecutors for their decision.

During the reporting period, our investigations led to      Agency                 Indictments           Convictions*
177 indictments and 180 convictions. The period of time
to obtain court action on an indictment varies widely;      AMS                        12                       9
therefore, the 180 convictions do not necessarily relate    APHIS                       6                       3
to the 177 indictments. Fines, recoveries/collections,      ARS                         0                       2
restitutions, claims established, and cost avoidance        FAS                         0                       1
resulting from our investigations totaled about             FNS                       113                     127
$37.8 million.                                              FS                          2                       3
                                                            FSA                        20                      19
The following is a breakdown, by agency, of indictments     FSIS                        9                       4
and convictions for the reporting period.                   GIPSA                       0                       1
                                                            NRCS                        3                       3
                                                            RHS                         5                       6
                                                            RMA                         6                       1
                                                            SEC                         1                       1
                                                                                      ___                     ___
                                                            Totals                    177                     180

                                                            *
                                                                This category includes pretrial diversions.




40
 Office of Inspector General Hotline

The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received
996 complaints, which included allegations of participant
fraud, employee misconduct, and mismanagement, as
well as opinions about USDA programs. Figure 3
displays the volume and type of the complaints we
received, and figure 4 displays the disposition of those
complaints.




 Figure 3                                                   Figure 4

 Hotline Complaints                                         Disposition of Complaints
 October 1, 2000, to March 31, 2001                         October 1, 2000, to March 31, 2001
 (Total = 996)
                                                                                    Referred to
                                                                Referred to       USDA Agencies
                                                Bribery       FNS for Tracking     for Response        Referred to
                        Participant                3                305                 415           State Agency
                          Fraud                                                                            50
                           617




    Waste/
                                               Health/
Mismanagement
                                   Opinion/    Safety         Referred to
     81       Employee           Information     20         USDA or Other                                Referred to
            Misconduct                85                     Agencies for Filed Without    Referred to Other Law
                190
                                                             Information-    Referral-     OIG Audit or Enforcement
                                                            No Response Insufficient      Investigations Agencies
                                                               Needed      Information      for Review       4
                                                                 138            44              40




                                                                                                                  41
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests for the Period
 October 1, 2000, to March␣ 31, 2001


Number of FOIA/PA Requests Received             224

Number of FOIA/PA Requests Processed:           250

 Number of Requests Granted in Full             123
 Number of Requests Granted in Part              57
 Number of Requests Not Granted                  51

Reasons for Denial:

 No Records Available                   18
 Requests Denied in Full                18
 Referrals to Other Agencies            21
-
Requests for OIG Reports From Congress
and Other Government Agencies

 Received                               99
 Processed                              99

Appeals Processed                                   7

 Appeals Completely Upheld               7
 Appeals Partially Reversed              0
 Appeals Completely Reversed             0

Number of OIG Reports/Documents                 235
Released in Response to Requests

NOTE: A request may involve more than one report.




42
Appendix I


                                     INVENTORY OF AUDIT REPORTS ISSUED
                                      WITH QUESTIONED COSTS AND LOANS

                                                                              DOLLAR VALUES
                                                                                                     a
                                                              QUESTIONED              UNSUPPORTED
                                                  NUMBER    COSTS AND LOANS          COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                           57      $2,101,833,748            $62,204,089
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2000

B. WHICH WERE ISSUED DURING                          17        396,175,490               1,212,614
   THIS REPORTING PERIOD

     TOTALS                                          74      $2,498,009,238            $63,416,703

C. FOR WHICH A MANAGEMENT                            20
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

     (1) DOLLAR VALUE OF
         DISALLOWED COSTS

         RECOMMENDED FOR RECOVERY                              $34,541,728             $20,565,957

         NOT RECOMMENDED FOR RECOVERY                           $6,417,766

     (2) DOLLAR VALUE OF                                           587,759                126,741
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                           54       2,456,483,893             42,724,005
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

     REPORTS FOR WHICH NO                            42       2,061,270,767             41,516,755
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE

a
    Unsupported values are included in questioned values.




                                                                                                         43
Appendix II


                            INVENTORY OF AUDIT REPORTS ISSUED
                   WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                      NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT              18          $808,846,056
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2000

B. WHICH WERE ISSUED DURING             12           947,852,600
   THE REPORTING PERIOD

     TOTALS                             30        $1,756,698,656

C. FOR WHICH A MANAGEMENT                5
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

     (1) DOLLAR VALUE OF                             $43,334,657
         DISALLOWED COSTS

     (2) DOLLAR VALUE OF                                   5,854
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT              25         1,713,260,644
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

     REPORTS FOR WHICH NO               15           807,798,044
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE




44
Appendix III


                                         SUMMARY OF AUDIT REPORTS RELEASED
                                      BETWEEN OCTOBER 1, 2000, AND MARCH 31, 2001

DURING THE 6-MONTH PERIOD BETWEEN OCTOBER 1, 2000, AND MARCH 31, 2001, THE OFFICE OF
INSPECTOR GENERAL ISSUED 53 AUDIT REPORTS, INCLUDING 11 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                                     QUESTIONED     UNSUPPORTEDa     FUNDS BE
                                                           AUDITS      COSTS           COSTS          PUT TO
AGENCY                                                    RELEASED   AND LOANS       AND LOANS      BETTER USE

FARM SERVICE AGENCY                                          2         $3,515,049                    $5,047,290
RURAL HOUSING SERVICE                                        6       $389,161,884         $5,364   $877,009,000
RISK MANAGEMENT AGENCY                                       5         $2,138,177     $1,084,528
COMMODITY CREDIT CORPORATION                                 1
FOREST SERVICE                                              10                                      $12,248,706
RURAL UTILITIES SERVICE                                      1
NATURAL RESOURCES CONSERVATION
      SERVICE                                                1           $15,283                    $11,154,008
OFFICE OF THE CHIEF FINANCIAL OFFICER                        1
OFFICE OF OPERATIONS                                         1
FOOD AND NUTRITION SERVICE                                  12          $616,707                         $3,596
ANIMAL AND PLANT HEALTH INSPECTION
      SERVICE                                                1
RURAL BUSINESS-COOPERATIVE SERVICE                           2          $228,390       $122,722     $42,300,000
MULTIAGENCY                                                  8          $500,000
RURAL DEVELOPMENT                                            2                                         $90,000

TOTALS                                                      53       $396,175,490     $1,212,614   $947,852,600

TOTAL COMPLETED:
  SINGLE AGENCY AUDIT                                       43
  MULTIAGENCY AUDIT                                          8
  SINGLE AGENCY EVALUATION                                   2
  MULTIAGENCY EVALUATION                                     0

TOTAL RELEASED NATIONWIDE                                   53

TOTAL COMPLETED UNDER CONTRACT b                            11

TOTAL SINGLE AUDIT ISSUEDc                                   1
a
  Unsupported values are included in questioned values.
b
  Indicates audits performed by others.
c
  Indicates audits completed as Single Audit.




                                                                                                                  45
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN OCTOBER 1, 2000, AND MARCH 31, 2001

                                                                       QUESTIONED     UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                             COSTS           COSTS        PUT TO
RELEASE DATE        TITLE                                              AND LOANS       AND LOANS    BETTER USE


FARM SERVICE AGENCY

 03-006-0018-TE JACKSON COUNTY OFFICE OPERATIONS - ARKANSAS              $3,515,049                   $5,047,290
 2000/10/03
 03-099-0038-KC FLOOD COMPENSATION PROGRAM
 2000/12/07

     TOTAL: FARM SERVICE AGENCY                                    2     $3,515,049                   $5,047,290

RURAL HOUSING SERVICE

 04-004-0002-AT   CITY OF SHELBY HOUSING AUTHORITY MANAGEMENT             $240,769
 2001/03/30       OF RURAL RENTAL HOUSING PROJECTS
 04-005-0006-SF   CITRUS MANOR DEVELOPMENT - FINANCIAL STATE-
 2001/03/29       MENT AUDIT FOR YEAR ENDED DECEMBER 31, 2000
 04-005-0007-SF   PARKVIEW PROPERTIES - FINANCIAL STATEMENT
 2001/03/29       AUDIT FOR YEAR ENDED DECEMBER 31, 2000
 04-099-0003-SF   TECHNICAL ASSISTANCE GRANT – PEOPLES’                     $5,364        $5,364
 2001/03/29       SELF-HELP HOUSING CORPORATION
 04-601-0007-CH   LOAN AMORTIZATION USING PREDETERMINED                $388,000,000                 $877,000,000
 2000/11/20       AMORTIZATION SCHEDULE SYSTEM
 04-801-0006-KC   INSURANCE EXPENSE                                       $915,751                       $9,000
 2000/12/18

     TOTAL: RURAL HOUSING SERVICE                                  6   $389,161,884       $5,364    $877,009,000

RISK MANAGEMENT AGENCY

 05-099-0002-CH   REVIEW OF CROP ROTATION REQUIREMENTS                      $7,192
 2001/03/09
 05-099-0003-SF   INDEMNITY PAYMENTS TO PRUNE PRODUCERS IN                  $2,142
 2001/03/30       CALIFORNIA - PRODUCER A
 05-401-0001-HQ   FY 2000 FCIC FINANCIAL STATEMENTS
 2001/02/28
 05-401-0002-HQ   RMA/FCIC FY 2000 FINANCIAL STATEMENTS REPORT
 2001/03/12       ON MANAGEMENT ISSUES
 05-601-0004-AT   CROP INSURANCE FOR SPECIALTY CROPS                     $2,128,843    $1,084,528
 2001/03/14

     TOTAL: RISK MANAGEMENT AGENCY                                 5     $2,138,177    $1,084,528

COMMODITY CREDIT CORPORATION

 06-401-0013-FM FISCAL YEAR 2000 CCC FINANCIAL STATEMENTS
 2001/02/15

     TOTAL: COMMODITY CREDIT CORPORATION                           1

FOREST SERVICE

 08-002-0002-SF   VALUATION OF LANDS ACQUIRED IN CONGRESSIONALLY
 2000/11/28       DESIGNATED AREAS LAND ADJUSTMENT PROGRAM
 08-003-0005-SF   LAND ACQUISITIONS AND URBAN LOT MANAGEMENT                                         $10,329,300
 2000/12/15       PROGRAM, LAKE TAHOE BASIN MANAGEMENT UNIT
 08-017-0008-KC   CH2M HILL, INC.-CONTRACT CLOSE OUT
 2001/01/04
 08-017-0009-KC   INTECS INTERNATIONAL INC., CONTRACT AUDIT
 2001/03/28
 08-017-0012-SF   EQUITABLE PRICE ADJUSTMENT AUDIT - ROEBBELEN                                         $849,895
 2001/01/25       CONTRACTING, INC.
 08-017-0014-SF   CONTRACT CLAIM - RYCO CONSTRUCTION,                                                  $531,646
 2001/01/22       GARDENA, CA
 08-017-0015-SF   EQUITABLE PRICE ADJUSTMENT - AIR SYSTEMS INC,                                        $349,475
 2001/01/25       SACRAMENTO, CA



46
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN OCTOBER 1, 2000, AND MARCH 31, 2001

                                                                         QUESTIONED   UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                               COSTS         COSTS        PUT TO
RELEASE DATE        TITLE                                                AND LOANS     AND LOANS    BETTER USE


 08-017-0016-SF   EQUITABLE PRICE ADJUSTMENT - MCINTOSH                                                $188,390
 2001/01/25       ELECTRIC, INC., SANTA ROSA, CA
 08-099-0006-SF   SECURITY OVER USDA INFORMATION
 2001/03/27       TECHNOLOGY RESOURCES
 08-801-0007-SF   EVALUATION OF FS ACTIONS TO STRENGTHEN LAND
 2000/12/05       EXCHANGE PROGRAM CONTROLS

   TOTAL: FOREST SERVICE                                            10                               $12,248,706

RURAL UTILITIES SERVICE

 09-401-0004-HQ FISCAL YEAR 2000 RURAL TELEPHONE BANK
 2001/02/20     FINANCIAL STATEMENT AUDIT

   TOTAL: RURAL UTILITIES SERVICE                                    1

NATURAL RESOURCES CONSERVATION SERVICE

 10-099-0001-SF EMERGENCY WATERSHED PROTECTION PROGRAM                      $15,283                  $11,154,008
 2001/02/20

   TOTAL: NATURAL RESOURCES CONSERVATION SERVICE                    1       $15,283                  $11,154,008

OFFICE OF THE CHIEF FINANCIAL OFFICER

 11-401-0008-FM AGREED-UPON PROCEDURES: RETIREMENT, HEALTH, LIFE
 2000/12/14     CONTRIBUTIONS AND HEADCOUNT REPORT SUBMITTED TO OPM

   TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER                     1

OFFICE OF OPERATIONS

 23-017-0009-HY HENSEL PHELPS CONSTRUCTION, INC.
 2000/11/09     DECEMBER 15, 1998, THRU JULY 12, 1999

   TOTAL: OFFICE OF OPERATIONS                                      1

FOOD AND NUTRITION SERVICE

 27-004-0004-CH   SUPPLEMENTAL FOOD PROGRAM FOR WOMEN, INFANTS,            $283,638
 2001/01/25       & CHILDREN, STATE ADMINISTRATIVE COSTS IN OHIO
 27-010-0020-SF   STATE OVERSIGHT OF SMALL, INDEPENDENT CENTERS -          $101,668
 2000/11/30       STATE OF CALIFORNIA
 27-017-0017-HY   ABT ASSOCIATES, INC.,—AUDIT OF THREE MAJOR
 2001/02/01       SYSTEMS AND INTERNAL CONTROLS FOR 1998
 27-017-0021-HY   ZGS COMMUNICATIONS, INC., INCURRED COST AUDIT
 2000/11/02
 27-099-0011-HY   EBT SYSTEM - FNS NATIONAL OFFICE OVERSIGHT
 2001/01/24
 27-099-0013-SF   FNS - APPEALS PROCESS
 2001/03/28
 27-401-0020-HY   FY 2000 FNS FINANCIAL STATEMENTS AUDIT
 2001/02/01
 27-601-0008-TE   CHILD AND ADULT CARE FOOD PROGRAM INITIATIVE               $9,567                      $3,596
 2001/03/14       FY 2000
 27-601-0009-TE   NSLP - FOOD SERVICE MANAGEMENT COMPANIES                  $48,472
 2001/03/28
 27-601-0010-AT   NSLP - FOOD SERVICE MANAGEMENT COMPANIES
 2001/02/16
 27-601-0023-CH   CACFP - BROINC                                           $168,913
 2000/11/24
 27-601-0025-CH   CACFP - ECONOMIC OPPORTUNITY PLANNING                      $4,449
 2000/12/18       ASSOCIATION




                                                                                                               47
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN OCTOBER 1, 2000, AND MARCH 31, 2001

                                                                        QUESTIONED     UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                              COSTS           COSTS        PUT TO
RELEASE DATE        TITLE                                               AND LOANS       AND LOANS    BETTER USE



     TOTAL: FOOD AND NUTRITION SERVICE                             12      $616,707                       $3,596

ANIMAL AND PLANT HEALTH INSPECTION SERVICE

 33-099-0002-HY APHIS INTERNATIONAL PROGRAMS
 2001/01/25

     TOTAL: ANIMAL AND PLANT HEALTH                                1
            INSPECTION SERVICE

RURAL BUSINESS-COOPERATIVE SERVICE

 34-001-0003-HQ   NATIONAL OFFICE PROCESSING: BUSINESS AND                                            $42,300,000
 2001/01/22       INDUSTRY PROGRAM
 34-099-0004-TE   RURAL ECONOMIC DEVELOPMENT LOANS AND GRANTS,             $228,390      $122,722
 2001/03/28       NE LOUISIANA DELTA CDC

     TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                     2       $228,390      $122,722     $42,300,000

MULTIAGENCY

 50-020-0014-CH   SINGLE AUDIT OF LEECH LAKE RESERVATION,                  $500,000
 2000/10/02       SPECIAL REVENUE FUND
 50-099-0019-FM   REVIEW OF CONTROLS OVER SELECTED USDA ADMIN-
 2001/01/02       ISTRATIVE SYSTEMS & RELATED PAYMENTS -PHASE II
 50-099-0025-FM   IT SECURITY - NFC PURCHASE CARD MANAGEMENT
 2001/01/02       SYSTEM
 50-099-0027-FM   SECURITY OF USDA INFORMATION TECHNOLOGY
 2001/03/30       RESOURCES
 50-401-0036-FM   FY 1999 USDA WORKING CAPITAL FUND FINANCIAL
 2000/11/09       STATEMENTS
 50-401-0039-FM   FY 2000 USDA FINANCIAL STATEMENTS
 2001/02/26
 50-601-0001-TE   CONTROLS OVER UNLIQUIDATED OBLIGATIONS
 2001/03/30
 50-601-0002-CH   VERIFICATION OF GPRA PROGRAM PERFORMANCE IN
 2001/03/30       RURAL DEVELOPMENT

     TOTAL: MULTIAGENCY                                            8       $500,000

RURAL DEVELOPMENT

 85-099-0001-SF   CA COASTAL RURAL DEVELOPMENT - INTERMEDIARY                                            $90,000
 2000/12/28       RELENDING PROGRAM
 85-401-0001-CH   FISCAL YEAR 2000 RURAL DEVELOPMENT FINANCIAL
 2001/02/16       STATEMENT AUDIT

     TOTAL: RURAL DEVELOPMENT                                      2                                     $90,000

     TOTAL: RELEASE - NATIONWIDE                                   53   $396,175,490    $1,212,614   $947,852,600




48
Abbreviations of Organizations
AMS        Agricultural Marketing Service
APHIS      Animal and Plant Health Inspection Service
ARS        Agricultural Research Service
CCC        Commodity Credit Corporation
CDFA       California Department of Food and Agriculture
CR         Office of Civil Rights
CSREES     Cooperative State Research, Education, and Extension Service
DEA        Drug Enforcement Administration
FAS        Foreign Agricultural Service
FBI        Federal Bureau of Investigation
FCIC       Federal Crop Insurance Corporation
FDA        U.S. Food and Drug Administration
FNS        Food and Nutrition Service
FS         Forest Service
FSA        Farm Service Agency
FSIS       Food Safety and Inspection Service
GAO        U.S. General Accounting Office
GIPSA      Grain Inspection, Packers, and Stockyard Administration
INS        Immigration and Naturalization Service
IRS        Internal Revenue Service
NAD        National Appeals Division
NBMC       National Business Management Center
NFC        National Finance Center
NRCS       Natural Resources Conservation Service
OCFO       Office of the Chief Financial Officer
OCIO       Office of the Chief Information Officer
OGC        Office of the General Counsel
OIG        Office of Inspector General
RBS        Rural Business-Cooperative Service
RHS        Rural Housing Service
RMA        Risk Management Agency
RUS        Rural Utilities Service
SEC        Office of the Secretary
Treasury   U.S. Department of the Treasury
USDA       U.S. Department of Agriculture
U.S. DEPARTMENT OF AGRICULTURE
OFFICE OF INSPECTOR GENERAL
STOP 2309
1400 INDEPENDENCE AVE., SW
WASHINGTON, DC 20250-2309




                                 www.usda.gov/oig
